<html>
<title> - THE DIRECTION AND VIABILITY OF THE FEDERAL PROTECTIVE SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                     THE DIRECTION AND VIABILITY OF
                     THE FEDERAL PROTECTIVE SERVICE

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2007

                               __________

                           Serial No. 110-32

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
48-907                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001










                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................     3
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    23
The Honorable Donna M. Christensen, a Representative in Congress 
  From the U.S. Virgin Islands...................................    25
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    28
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    38
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    29
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    33
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    24
The Honorable Eleanor Holmes Norton, Delegate in Congress From 
  the District...................................................    18
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    32
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................    21

                               Witnesses

Mr. Joseph Ricci, Executive Director, National Association of 
  Security Companies:
  Oral statement.................................................    59
  Prepared Statement.............................................    61
Mr. Gary Schenkel, Director Federal Protective Service, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     9
  Oral Statement.................................................    11
The Honorable Hanes L. Taylor, Deputy Inspector General, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. David L. Wright, President, American Federation of Goverment 
  Employees, Local 918, FPS Union:
  Oral Statement.................................................    40
  Prepared Statement.............................................    41
      Attachment 1: Briefing on the Federal Protective Service, 
        Transition to FY 08 Budget, December 20, 2006............    46
      Attachment 2: Federal Protective Service, Staff Allocation 
        Model, FPS National Staffing Model Team June 2005........    49

 
     THE DIRECTION AND VIABILITY OF THE FEDERAL PROTECTIVE SERVICE

                              ----------                              


                          Tuesday, May 1, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:06 a.m., in Room 
2118, Rayburn House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Norton, Jackson Lee, 
Christensen, Langevin, Cuellar, Carney, Clarke, Green, 
Perlmutter, Lungren, Reichert, Dent, and Bilirakis.
    Chairman Thompson. [Presiding.] The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony on 
``The Direction and Viability of the Federal Protective 
Service.''
    I yield myself as much time as I may consume for an opening 
statement.
    We are here today to discuss the future direction of the 
Federal Protective Service, also known as FPS. FPS was 
established in 1971 as a uniformed protection force in the 
federal government. The FPS mission then and now is to secure 
government-owned buildings and protect the millions of people 
who work in or visit those buildings every day.
    The importance of the FPS mission became clear long before 
9/11. The 1995 terrorist attack on the Alfred P. Murrah 
building in Oklahoma City brought home the fact that federal 
buildings could be targets for terrorist attack.
    So unlike many scenarios which could happen, we know that a 
terrorist attack on a federal building has happened. Knowing 
that such an attack has happened should cause us to increase 
our resolve to fortify our resources so that it will never 
happen again. Because the department is charged with keeping 
the federal sector secure from attack, FPS guards are often our 
first line of defense.
    So we are here today to get some clarity concerning the 
department's vision for FPS's future. Currently, FPS has about 
1,100 guards who are federal employees. An additional 15,000 
private security guards protect the lion's share of federal 
buildings through contracts with FPS. The contracts for these 
private guards are the largest single item in the FPS budget, 
and every year the cost of hiring private guards grows.
    In fiscal year 2006, FPS paid private guards $487 million 
to protect federal buildings. In fiscal year 2007, FPS will pay 
$577 million for private guards to protect federal buildings. 
So in 1 year alone, the cost of private security guards has 
increased by $90 million. This is a 20 percent growth rate. It 
is the duty of this committee to assure that this 20 percent 
growth in payments to these contractors represents money that 
is well spent, effectively administered, and properly overseen. 
The American taxpayer demands that of us.
    But at this point, we cannot say that the department is 
effectively using this money. Both the department's inspector 
general and the GAO have found that FPS has been lax in its 
oversight of these security contracts. The IG found that FPS 
had paid $121 million to contractors without requiring all of 
the necessary paperwork. I know that $100 million may not seem 
like a lot to people around here, but in Mississippi that is 
real money.
    Given this continuing need for security at federal 
buildings and the growth in security guard contracts, it would 
be logical to think that the department would increase FPS 
personnel, but this is not the department's plan. We have been 
told that the department actually plans on reducing and 
reassigning FPS guards. Instead of increasing FPS personnel, 
the department plans on increasing the number of private 
security contractors.
    The department's plan needs strong contract oversight to 
succeed. Yet, the department's inspector general and the GAO 
have questioned the FPS's ability to adequately monitor and 
oversee both the billing and the performance of these private 
contractors. And while the use of private guards may not be a 
problem, we should remember that without adequate contracting 
oversight, we will remain unsure of the safety of our federal 
buildings and the security of the millions of people who visit 
them every day.
    I look forward to the testimony of the witnesses.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    FPS was established in 1971 as a uniformed protection force in the 
federal government. The FPS mission--then and now--is to the secure 
government owned buildings and protect the millions of people who work 
in or visit those buildings every day. The importance of the FPS 
mission became clear long before 9/11. The 1995 terrorist attack on the 
Alfred P. Murrah building in Oklahoma City brought home the fact that 
federal buildings could be targets for terrorist attack.
    So unlike many scenarios which could happen, we know that a 
terrorist attack on a federal building has happened. Knowing that such 
an attack has happened should cause us to increase our resolve and 
fortify our resources so that it will never happen again. Because the 
Department is charged with keeping the federal sector secure from 
attack, FPS guards are often our first line of defense.
    So we are here today to get some clarity concerning the 
Department's vision for FPS's future. Currently, FPS has about 1100 
guards who are federal employees. An additional 15,000 private security 
guards protect the lion's share of federal buildings through contracts 
with FPS. The contracts for these private guards are the largest single 
item in the FPS budget. And every year the cost of hiring private 
security guards grows.
    In Fiscal Year 2006, FPS paid private guards $487 million to 
protect federal buildings. In Fiscal Year 2007, FPS will pay $577 
million for private guards to protect federal buildings. So in one year 
alone, the cost of private security guards has increased by $90 
million. This is a 20% growth rate. It is the duty of this committee to 
assure that this 20% growth in payments to these contractors represents 
money that is well spent, effectively administered and properly 
overseen. The American taxpayer demands that of us.
    But at this point, we cannot say that the Department is effectively 
using this money.
    Both the Department's Inspector General and the GAO have found that 
FPS has been lax in its oversight of these security contracts. The IG 
found that FPS had paid $121 million to contractors without requiring 
all of the necessary paperwork. I know that $100 million may not seem 
like a lot around here, but in Mississippi that is real money.
    Given this continuing need for security at federal buildings, and 
the growth in security guard contracts, it would be logical to think 
that the Department would increase FPS personnel. But that is not the 
Department's plan. We have been told that the Department actually plans 
on reducing and reassigning FPS guards. Instead of increasing FPS 
personnel, the Department plans on increasing the number of private 
security contractors.
    The Department's plan needs strong contract oversight to succeed. 
Yet the Department's Inspector General and the GOA have questioned the 
FPS' ability to adequately monitor and oversee both the billing and 
performance of these private contractors. And while the use of private 
guards may not be a problem, we should remember that without adequate 
contracting oversight, we will remain unsure of the safety of our 
federal buildings and the security of the millions of people who visit 
them every day.

    Mr. Thompson. I now yield 5 minutes to Mr. Bilirakis of 
Florida for an opening statement as ranking member.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    This hearing presents a good opportunity to discuss the 
changes being implemented by the Federal Protective Service. 
FPS has recently announced plans to refocus its mission, 
realign its workforce, and strengthen security standards. These 
efforts are intended to improve FPS's ability to deter, prevent 
and respond to threats and vulnerabilities at federal 
facilities nationwide.
    I would like to thank our two panels of witnesses for being 
here today. I look forward to the testimony of Mr. Taylor and 
Mr. Schenkel, who will provide insight into the future of FPS 
and the benefit of taking a risk-based approach to secure 
federal property.
    I also look forward to the testimony of our second panel, 
including Mr. Wright and Mr. Ricci. I would especially like to 
thank Mr. Ricci for being here on behalf of the National 
Association of Security Companies. It is important for members 
of the private security industry to be engaged in the debate 
over the protection of federal facilities.
    This hearing presents a good opportunity for FPS to clarify 
its newly focused mission and to discuss the important roles of 
contract security. Contract guards work with federal, state and 
local law enforcement to provide security at GSA-owned and GSA-
operated buildings, U.S. military bases, as well as nuclear 
power plants nationwide.
    These guards are required to meet government-specified 
training and performance standards. Therefore, all 15,000 
guards protecting GSA property under contract with FPS are 
required to meet FPS training and suitability requirements. 
These requirements include criminal background checks, firearm 
certification, 80 hours of basic training, and first-aid and 
CPR training. Contract guard compliance with FPS standards must 
be properly monitored by FPS to ensure the success of its 
mission. While it is important to note that DHS inherited many 
of FPS's budgetary and administrative issues, the department is 
responsible for addressing these shortfalls and ensuring that 
federal facilities receive proper protection.
    According to ICE, a number of FPS activities will be 
consolidated or eliminated as FPS transitions to the fiscal 
year 2008 budget. Among these, FPS will have no federal 
oversight on-site presence in approximately 50 cities; no 
proactive surveillance patrol; and a reduction in FPS federal 
officers in New York and Washington, D.C. While department 
officials report that FPS is not anticipating a budgetary 
shortfall and that these changes are only part of a realignment 
effort, several press reports indicate that a shortfall may 
range from $40 million to $80 million.
    The department is responsible for addressing those 
shortfalls, if they exist, and ensuring that federal facilities 
receive proper protection. If FPS is committed to fulfilling 
this responsibility, and contract security companies are 
willing to meet training and performance standards set by FPS, 
I think we should expect FPS to successfully implement its 
performance goals and to realign using a risk-based approach to 
security planning.
    I would like to thank our witnesses in advance for their 
testimony.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    Other members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I welcome the first panel of witnesses.
    Our first witness, the Honorable James L. Taylor, is the 
deputy inspector general for the Department of Homeland 
Security. He previously served as a deputy chief financial 
officer and director for financial management at the Department 
of Commerce.
    Our second witness, Gary Schenkel, was appointed director 
of the Federal Protective Service, one of the five divisions of 
the U.S. Immigration and Customs Enforcement, in March 2007. A 
retired Marine Corps lieutenant colonel, Schenkel has 
significant leadership experience in wide areas.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Taylor.

 STATEMENT OF HON. JAMES L. TAYLOR, DEPUTY INSPECTOR GENERAL, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Taylor. Thank you, Mr. Chairman, and good morning. I 
appreciate the opportunity to appear before you and members of 
the committee to discuss DHS's IG's work related to the Federal 
Protective Service.
    My testimony today will focus on the Federal Protective 
Service's oversight of its contract guard program and financial 
management issues as a basis for our comments on FPS's new 
strategy related to its mission and overall reduction of 
manpower.
    As part of its overall strategy to ensure the physical 
safety of government employees and visitor, FPS largely uses 
contract guards to deter crime in and around federal buildings. 
FPS guards play a crucial and highly visible role in the FPS 
mission. They are deployed at roving as well as fixed posts 
where they often operate security screening devices such as 
magnetometers and X-ray machines. Contract guard services 
represent the single largest item in the FPS operating budget, 
estimated to be over $575 million in fiscal year 2007.
    As a result of the Oklahoma City bombing in 1995, the 
contract guard workforce has more than doubled and now numbers 
around 15,000 nationwide. FPS has become increasingly reliant 
on its contract guard force, having less than 1,000 uniformed 
FPS officers nationwide.
    Previous GSA inspector general and GAO reports noted 
numerous deficiencies in contract guard qualifications and FPS 
oversight of guard contracts before FPS was relocated to DHS. 
Accordingly, in 2006, we initiated an audit of FPS's oversight 
of contract guard contracts in the national capital region. Our 
objectives were to determine whether effective controls were in 
place to ensure that qualified contract guards are deployed at 
federal buildings in the national capital region, and if FPS 
effectively monitors contractor performance and if guard 
company invoices were being paid timely, according to the 
Prompt Payment Act on a nationwide basis.
    We concluded that FPS was not consistently deploying 
qualified and certified contract guards. Guards were on-post 
without current suitability determinations or with expired 
certifications. Thirty percent of the guards in our sample had 
at least one expired, but required, certification. For example, 
we identified guards with expired background investigations, 
medical certifications, and expired domestic violence 
certifications.
    We identified guards that were on-post with expired 
suitability determinations, including in one instance a guard 
who was still on-post 7 months after having been found 
unsuitable due to a felony assault conviction. We found 
security guards who are not armed where they are supposed to be 
armed. Guards were armed at posts designed to be unarmed, and 
guards did not have top secret or secret security clearances at 
posts that required such clearances, and non-citizen guards who 
were not carrying the required work permit cards.
    These deficiencies occurred because FPS personnel were not 
effectively monitoring the contract guard program. While the 
contractor has a primary responsibility for ensuring that all 
contract provisions are met, inadequate contractor oversight 
can result in the government paying for services it did not 
receive and placing FPS protective facilities, employees and 
visitors at risk.
    We also found that FPS was not paying invoices for its 
contract guard services nationwide in a timely manner. Of the 
more than 25,000 invoices paid nationwide from October 1, 2004 
to November 21, 2005, 88 percent were not paid within 30 days 
as required by the Prompt Payment Act. As a result, FPS paid 
more than $1.2 million in interest penalties to these 
companies.
    We found that a central cause for FPS's inability to pay 
private guards timely was FPS's transition from GSA to the ICE 
financial management system. An independent auditor contracted 
by ICE to perform an audit of DHS's financial statements 
confirmed that finding. They also concluded that the 
integration of FPS's accounting processes from GSA to ICE 
created numerous issues with the integrity of FPS's transaction 
data and represented a material weakness in ICE's internal 
controls. FPS budget and financial officials informed us that 
inadequate training prior to the transition and the difficulty 
in using the financial system also contributed to the invoice 
payment problems.
    In our report issued last October, we made four 
recommendations to the regional director of the national 
capital region, and one
recommendation to the director of FPS to strengthen controls 
over its contract guard program. FPS operations are funded 
solely through security fees and reimbursements collected from 
federal agencies for FPS security services rendered. FPS 
charges individual agencies for security services based on the 
building's identified security level and building-specific 
security needs.
    Funding issues have been a problem for FPS even prior to 
its transfer to the Department of Homeland Security. GAO 
reported this in 2004 when they said security fees collected in 
the past by GSA were not sufficient to cover the cost of FPS 
operations and that the deficits were covered by GSA using 
monies from its federal building fund.
    Meeting the agency's workforce reduction targets in the 
plan identified by the department carries with it attendant 
risks. Without careful planning, proposed staffing and service 
reductions could lead to uneven effects across the nation, 
perhaps placing some facilities and its employees at risk. FPS 
could experience a significant loss of workforce skill and 
knowledge and skills and balances across its regional offices.
    To address these challenges before they become problems, 
FPS needs to proactively develop appropriate strategies to 
ensure necessary staff levels and competencies are in place to 
carry out the agency's mission and effectively protect federal 
buildings, employees and visitors.
    Continuous monitoring of attrition within FPS will allow 
the agency to more readily identify locations that require 
special attention to ensure that mission-related 
responsibilities are not negatively impacted.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions you or the committee members 
may have.
    [The statement of Mr. Taylor follows:]

                    Prepared Statement of Jim Taylor

Introduction
    Good morning, Mr. Chairman and Members of the Committee. I am Jim 
Taylor, Deputy Inspector General for the Department of Homeland 
Security (DHS). Thank you for the opportunity to discuss work the 
Department of Homeland Security Office of Inspector General (OIG) has 
completed related to the Federal Protective Service (FPS).
    My testimony today will address our concerns about the Federal 
Protective Service's oversight of its contract guard program and 
financial management issues as a basis on our comments on FPS' new 
strategy related to its mission and overall reduction of manpower.

The Federal Protective Service
    The Federal Protective Service, established in 1971 as the 
uniformed protection force of the General Services Administration (GSA) 
for government-occupied facilities, is responsible for policing, 
securing, and ensuring a safe environment in which federal agencies can 
conduct business by reducing threats posed against approximately 9,000 
federal government facilities nationwide.
    Under the Homeland Security Act of 2002, FPS was transferred to the 
Department of Homeland Security and retained its responsibilities for 
protecting the buildings, grounds, and property owned, occupied, or 
secured by the federal government under GSA's jurisdiction. In addition 
to GSA facilities, the Act also provides FPS with the authority to 
protect properties held by DHS components that were not under GSA 
jurisdiction. FPS was moved from GSA, Public Building Services, to DHS, 
effective March 1, 2003. Within DHS, FPS is part of the Immigration and 
Customs Enforcement (ICE) Directorate.

FPS Contract Guard Services Oversight
    As part of its overall strategy to ensure the physical safety of 
government employees and visitors, FPS uses contract guards to deter 
the commission of crime in and around federal buildings. Guards are 
deployed at roving and fixed posts, where they often operate security-
screening devices such as magnetometers and x-ray machines. FPS guards 
play a crucial and highly visible role in the FPS mission, often the 
first, and sometimes the only, contact visitors have with FPS at a 
facility.
    Contract guard services represent the single largest item in the 
FPS operating budget, estimated to be $577 million for fiscal year 
2007. As a result of the Oklahoma City bombing in 1995, the contract 
guard workforce more than doubled and now numbers around 15,000. FPS 
has become increasingly reliant on its contract guard force, having 
less than 1,000 uniformed FPS officers nationwide.
    Previous GSA Office of Inspector General and Government 
Accountability Office (GAO) reports noted numerous deficiencies with 
contract guard qualifications and FPS oversight of guard contracts. 
Accordingly, in the fall of 2005, the DHS OIG began an audit of FPS's 
oversight of contract guard contracts in its Region 11--the National 
Capital Region (NCR).\1\ Our objectives were to determine whether (1) 
effective controls are in place to ensure qualified contract guards are 
deployed at federal buildings in Region 11; (2) FPS' Region 11 
effectively monitors contractor performance and compliance with 
contract provisions; and (3) contract guard company invoices were paid 
timely according to the Prompt Payment Act nationwide.
---------------------------------------------------------------------------
    \1\At the time of our audit, the NCR contract guard program 
consisted of 54 guard service contracts that provide approximately 
5,700 guards to protect 125 facilities.
---------------------------------------------------------------------------
    We concluded that FPS' Region 11 was not consistently deploying 
qualified and certified contract guards. Contract guards were on post 
without current suitability determinations or with expired 
certifications. Thirty percent of the guards in our sample had at least 
one expired, but required, certification. For example, we identified 
guards with expired background investigations, medical certifications, 
and expired domestic violence certifications.
    We identified guards that were on post with expired suitability 
determinations, including in one instance, where we identified a guard 
was still on post as of January 2006, although NCR adjudicated the 
guard unfavorable in May 2005 due to a felony assault conviction.
    Also, security contractors were not performing their security 
services according to the terms and conditions of their contracts. For 
example, we found security guards who were not armed at armed posts as 
required; guards who were armed at posts designated to be unarmed; 
guards who did not have Top Security or Secret security clearances at 
posts that required higher level clearances; and non-citizen guards who 
were not carrying their required work permit cards.
    These deficiencies occurred because FPS personnel were not 
effectively monitoring the contract guard program. While the contractor 
has the primary responsibility for ensuring that all contract 
provisions and requirements are met, FPS is required to actively 
monitor and verify contractor performance.
    NCR's 12 Quality Assurance Specialists (QAS) are responsible for 
the day-to-day inspection and monitoring of the contractors' work. The 
role of the QAS is critical to monitoring contract guard performance, 
as they are the primary NCR personnel on-site who can verify compliance 
with contract provisions and requirements. NCR's eight Contract Section 
personnel are responsible for processing deductions to contractor 
invoices due to noncompliance issues uncovered by the QASs.
    However, the QASs were not consistently submitting their inspection 
reports to the NCR Contract Section, and for those that were submitted, 
most were not submitted in a timely manner. In addition, Contract 
Specialists were not making deductions to contractor invoices when 
appropriate. Specifically, they did not process potential deductions 
from contractor invoices totaling almost $1.3 million when guard 
companies failed to comply with contract requirements.
    FPS explained that these lapses were due to understaffing. 
Inadequate contractor oversight can result in the government paying for 
services it did not receive, loss of monies resulting from contract 
deductions due to nonperformance, and placing FPS-protected facilities, 
employees, and facility visitors at risk.

Federal Protective Service Financial Management and Contractor Payments
    The Federal Protective Service continues to face financial 
management challenges from its transition from the General Services 
Administration (GSA) to the Department and, specifically, to ICE. Our 
October 2006 audit of FPS contract guard service operations found that 
FPS was not paying invoices for its contract guard services nationwide 
in a timely manner, resulting in a violation of the Prompt Payment Act. 
Of the 25,557 invoices paid from October 1, 2004, to November 21, 2005, 
88 percent were not paid within 30 days as required by the Prompt 
Payment Act. As a result, FPS paid more than $1.2 million in interest 
to guard companies that are contracted by FPS to protect federal 
buildings for late payments made during this time period. We found that 
a central cause for FPS' inability to pay private guard contractors 
timely was FPS' transition from the GSA Financial Management System to 
the ICE Federal Financial Management System (FFMS) on October 1, 2004, 
and occurred before the system was adapted to meet the unique financial 
and budgeting requirements associated with FPS' business processes.
    The DHS, Office of the Under Secretary for Management, originally 
directed that the FPS transition from the GSA Financial Management 
System to the ICE FFMS be completed by October 1, 2003. Following the 
initial review of the unique financial management requirements needed 
to support the FPS offsetting collections program, the transition date 
was extended to October 1, 2004. FPS officials said that, despite 
attempts to explain FPS business processes and FFMS needs to the ICE 
OFM, problems with adapting the FFMS to FPS needs remained and 
suggested that the transition to the ICE system be postponed. However, 
DHS required FPS to transition to the system on October 1, 2004, 
despite concerns about the system's ability to meet FPS needs. ICE 
financial management staff had assured the staff of the Senate 
Appropriations Committee, in a briefing on February 17, 2005, that the 
FPS transition would be completed by March 31, 2005.
    However, problems with contractor payments and the transition to 
FFMS continued. In a May 6, 2005, memorandum to the Assistant Secretary 
for ICE, the Director of FPS outlined what he considered systemic 
problems and issues with the FFMS and reported that problems with 
contractor payments had, in fact, worsened since the transition. An 
independent auditor contracted by us to perform an audit of DHS 
financial statements \2\ also concluded that the integration of FPS' 
accounting processes from GSA to ICE created numerous issues with the 
integrity of FPS transaction data and represented a material weakness 
in ICE's internal controls.
---------------------------------------------------------------------------
    \2\ DHS' Performance and Accountability Report for Fiscal year 
2005, November 15, 2005, Department of Homeland security.
---------------------------------------------------------------------------
    FPS Budget and Finance officials in Region 3 and FPS Headquarters 
officials informed us that inadequate training prior to the transition 
and the difficulty in using the FFMS also contributed to the invoice 
payment problems. These officials indicated that the system is 
difficult to navigate and that errors are time-consuming to correct.

Follow-up on OIG report on improving FPS contract guard oversight
    We issued ``Federal Protective Service Needs to Improve its 
Oversight of its Contract Guard Program,'' OIG-07-05, on October 30, 
2006. In this report, we made four recommendations to the Regional 
Director of the NCR (Region 11), and one recommendation to the Director 
of FPS to strengthen controls over its contract guard program.
    Since our audit was issued in October 2006, we have updated FPS 
progress on implementing our recommendations to improve management of 
its contract guard program. We consider 2 of the 4 recommendations 
resolved and closed. The actions planned and taken by FPS to improve 
their contract monitoring efforts should ensure that contractors are 
deploying qualified and certified guards at federal facilities in the 
National Capital Region. However, we consider two recommendations still 
open and unresolved:

        1. We recommended that the Regional Director of the National 
        Capital Region review all inspection reports and proposed 
        deductions for the period March 1, 2003 through the present and 
        initiate collection actions on all contracts found to be 
        deficient. In response to our inquiry as to the status of 
        recommendation implementation, FPS stated that contract terms 
        required deductions to be collected within 30 days after the 
        month of performance making it contractually impossible to go 
        back and collect contract deductions that should have been 
        previously identified and taken. We asked FPS to provide us 
        with the information from their guard contracts that 
        specifically state that collections are limited to 30 days 
        after the performance period.

        2. We recommended that the Director of the Federal Protective 
        Service work with the ICE Chief Financial Officer to implement 
        corrective actions to adequately address internal control 
        deficiencies and payment timeliness issues noted here and in 
        our annual financial audit report issued in November 2005.
    ICE and FPS were responsive to our recommendation and have taken 
steps to implement corrective actions to adequately address internal 
control deficiencies and payment timeliness issues. In response to our 
final audit report, FPS stated that in addition to the Tiger Team 
efforts referenced in the report, ICE had put into place a Financial 
Action Plan (FAP) to address findings from the 2004 and 2005 financial 
audits including those that relate to FPS issues. The Project 
Management Office has worked with various offices and stakeholders to 
develop the plan, and is overseeing the implementation of the FAP. The 
FAP includes a project to improve invoice processing.
    However, we consider this recommendation open until implementation 
of the various steps outlined in the agency's response to our final 
report are complete.

FPS Budget Shortfall and Future Changes in Strategy
    FPS operations are funded solely through security fees and 
reimbursements collected from federal agencies for FPS security 
services rendered. FPS charges individual agencies for security 
services based on the building's identified security level \3\ and 
building-specific security needs. Funding issues have been a problem 
for FPS even prior to its transfer to the Department of Homeland 
Security. GAO, in 2004, reported that the security fees collected in 
the past by GSA were not sufficient to cover the cost of FPS 
operations, and that the deficits were covered by GSA using monies from 
its federal building fund.
---------------------------------------------------------------------------
    \3\ Buildings are categorized along five levels; Level V is the 
highest in terms of building security and Level I is the lowest. Levels 
are assigned primarily according to the number of tenants within a 
facility and also takes into consideration the square footage of office 
space, volume of public contact, and tenant agency mission functions. A 
facility's designated security level translates to minimum security 
standards that must be met. FPS conducts periodic risk assessments to 
validate a facility's security standards and countermeasures in place 
as well as to determine whether additional security enhancements are 
needed.
---------------------------------------------------------------------------
    In response to the GAO report, FPS recently unveiled a new strategy 
and focus to provide security services and to reallocate its manpower. 
The agency will change its focus to setting security standards and 
ensuring compliance with those standards. FPS says it will target its 
efforts and resources according to a risk-based model, concentrating on 
federal facilities with security levels III and IV. Another aspect of 
its new strategy calls for a reducing manpower from about 1200 to 950 
positions through out-placing to other ICE and DHS components through 
attrition. In response to the OIG report, FPS has already taken steps 
it believes have strengthened its monitoring and oversight of the 
contract guard program.
    Meeting the agency's workforce reduction targets through out-
placing and attrition carries with it attendant risks. Without careful 
planning of its workforce, proposed staffing and service reductions 
could lead to uneven effects across the nation, perhaps placing some 
facilities and its employees at risk. In some locations or offices 
within FPS, the agency's most knowledgeable employees may be the most 
likely to leave FPS and not be replaced. FPS could experience higher 
attrition in major urban centers as compared to regional and field 
locations. These factors may result in a significant loss in workforce 
skill and knowledge, skills imbalances, with some areas and locations 
hit harder than others.
    To address these challenges before they become problems, FPS should 
be proactively engaging in workforce planning and implementing 
appropriate strategies to ensure necessary staff levels and 
competencies are in place to carry out the agency's mission and 
effectively protect federal facilities, employees and visitors. 
Continuous monitoring of attrition within FPS will allow the agency to 
more readily identify locations that will require special attention to 
ensure that mission-related responsibilities are not negatively 
impacted.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or the Committee Members may have.

    Chairman Thompson. Thank you very much.
    We will now hear from Mr. Schenkel.

   STATEMENT OF GARY SCHENKEL, DIRECTOR, FEDERAL PROTECTIVE 
                            SERVICE

    Mr. Schenkel. Chairman Thompson, distinguished members of 
the committee, as the director of the Federal Protective 
Service, I appreciate the opportunity to appear before you to 
discuss the long and proud history of FPS, the business 
improvements that have been made over the past 2 years, and my 
vision for where we are heading in the future.
    As you may know, I began serving in my current position 1 
month ago today. Prior to joining the FPS, I was the assistant 
federal security director at Chicago Midway Airport, where I 
oversaw the strategic planning and business management of TSA 
operations and worked closely with both government and private 
sector partners to ensure the highest levels of security, 
without sacrificing efficiency and service.
    Before joining the TSA, I served as the assistant deputy 
superintendent of the Chicago Police Department, where I served 
as the director of training and recruitment, and was 
responsible for employee relations and labor matters, including 
establishing a strong working relationship with the Chicago 
police union.
    I was recruited for my position with the Chicago Police 
Department while serving in my 29th year as a U.S. Marine. 
While serving in the Marines, I attained my bachelor of fine 
arts degree, master's in public administration, and graduated 
from the Amphibious Warfare School and the Marine Corps Command 
and Staff College. These experiences prepared me to wide-
ranging responsibilities over large geographic areas, 
exercising centralized control over dispersed decentralized 
operations.
    I am confident that my leadership and security experience, 
as well as my background in organizational transformation, 
security planning for public facilities, logistical planning 
and business administration, will enable me to make a 
significant contribution to the success of FPS.
    FPS is a critical part of ICE's overall mission through its 
protection of our federal facilities, the public that conducts 
business in those buildings, and the federal employees who work 
there. FPS uses a layered security approach that includes 
conducting security assessments, offering emergency planning 
services, and providing law enforcement services at more than 
8,900 federal facilities nationwide.
    FPS provides a wide range of activities performed by over 
15,000 contract security guards and nearly 1,200 government 
personnel. Primarily composed to police officers, special 
agents, and inspectors, contract security guard employees of 
the private sector companies under contract with FPS perform 
six post access controls and screening functions. FPS officers 
perform patrol activities and respond to calls for service, 
while FPS special agents investigate crimes on federal property 
and perform intelligence and analysis functions.
    FPS inspectors are uniformed law enforcement officers that 
possess full authority and training of the FPS police officer. 
However, inspectors are also duly trained as physical security 
experts and provide comprehensive security services, including 
building security assessments and implementing and testing 
security measures and monitoring and overseeing the contract 
guard force.
    For fiscal year 2008, the president's budget supports 950 
full time equivalent personnel that would be aligned with our 
national infrastructure protection plan priorities and risk-
based methodology. The president's 2008 budget fully maintains 
existing levels of contract security guards. FPS will set 
security certifications for these contract guards and will 
increase its emphasis on ensuring compliance with the 
standards. Coupled with the contract guards are the FPS 
inspectors who will develop security policy, standards, provide 
building assessments, and monitor agency compliance with 
security standards.
    On the financial management front, FPS has struggled to 
cover all of its costs within its fee-based structure. In 
fiscal year 2006, $29.4 million was reprogrammed to offset a 
projected existing FPS deficit. In fiscal year 2007, FPS is 
projected to be financially solvent due to the implementation 
of basic financial controls and a number of cost-cutting and 
cost-avoidance measures that began in 2006.
    These cost containment efforts have enabled FPS to use 
funds for more critical operational needs. For example, in 2007 
FPS conducted a law enforcement basic training class, along 
with a Physical Security Academy, PSA, class. We call for an 
additional two more classes in fiscal year 2007.
    ICE has been engaged in a top-to-bottom review of FPS's 
operations to address critical issues, while continuing to 
provide the highest level of security protection and services 
to its clients. In addition, FPS must also play an additional 
role in the National Infrastructure Protection Plan as a 
sector-specific agency for government facilities.
    The NIPP provides a comprehensive framework for the 
protection of government facilities, transportation facilities, 
key infrastructure assets, and other facilities from potential 
terrorist attacks, natural disasters, and other emergencies.
    I welcome the opportunity to share this panel with Deputy 
Inspector General Taylor. FPS has received outstanding support 
and guidance from the Office of the Inspector General and is 
working diligently to ensure we address the findings made 
concerning our contract guard program.
    We also have an important partnership with our contract 
security guards, and we welcome the input from such an esteemed 
organization like the National Association of Security 
Companies, NASCO, and look forward to a strong and long-lasting 
partnership.
    I am also extremely pleased to be here with Inspector David 
Wright, union president, a gentleman that I have had the good 
fortune to meet with previously, and a true gentleman that I 
look forward to working with for the refinement of this process 
in the future.
    The coming years will be filled with significant change for 
the FPS program and its dedicated workforce. It will take 
several years to accomplish our efforts. ICE and FPS now have 
the right plan to strengthen this vital capability.
    Thank you again, Mr. Chairman, for holding this important 
oversight hearing. I would be pleased to answer any questions.
    [The statement of Mr. Schenkel follows:]

                 Prepared Statement of Gary W. Schenkel

INTRODUCTION
    Chairman Thompson, Ranking Member King and distinguished Members of 
the Committee. Thank you for the opportunity to appear before you to 
share information about the Federal Protective Service (FPS), business 
improvements made over the last two years, and a vision on where we are 
going as a program in the future. Bottom line--since merging into U.S. 
Immigration and Customs Enforcement (ICE) after the creation of the 
Department of Homeland Security (DHS) in March 2003, FPS has been 
focused on strengthening its capability to execute its core mission. 
The goal was and still is to implement a more effective FPS, ensuring 
that our nation's critical Federal facilities remain safe and secure. 
We now have a plan to succeed in this goal.

THE ICE MISSION
    The ICE mission is to protect the American people by enforcing the 
law against terrorists and criminals who seek to cross our borders and 
threaten us here at home. The FPS program is a critical part of that 
mission through its protection of our Federal facilities, the public 
that conducts business in those buildings, and the Federal employees 
who work there. FPS uses a layered security approach that includes 
conducting security assessments, offering emergency planning services, 
and providing law enforcement services. These activities are performed 
at more than 8,900 Federal facilities nationwide.

FPS BACKGROUND
    The FPS program delivers integrated law enforcement and security 
services to Federal agencies housed in General Services Administration 
(GSA) owned and leased facilities throughout the United States and its 
territories. FPS services cover a wide range of activities that have 
been performed by over 15,000 contract security guards and nearly 1,200 
Government personnel, primarily composed of police officers, special 
agents, and inspectors. Contract security guards are employees of 
private sector companies, under contract with FPS, that perform fixed-
post access control and screening functions. FPS police officers 
perform patrol activities and respond to calls for service, while FPS 
Special Agents investigate crimes on GSA controlled property and 
perform intelligence analysis functions. FPS inspectors are uniformed 
law enforcement officers that possess the full authority and training 
of FPS police officers; however, inspectors also are dually trained as 
physical security experts and provide comprehensive security services 
including building security assessments, implementing and testing 
security measures, and monitoring and overseeing the contract guard 
force.
    On an annual basis, FPS conducts nearly 2,500 building security 
assessments and responds to approximately 1,500 demonstrations. In 
Fiscal Year (FY) 2006, FPS conducted more than 1,000 criminal 
investigations for crimes against government facilities and employees 
and arrested more than 4,000 criminals and fugitives for committing 
crimes on Federal property. Additionally, contract security guards 
seized more than 800,000 weapons and other prohibited items prior to 
their entry into Federal facilities. FPS provides services to nearly 
1,500 facilities categorized as Security Level III or IV (highest risk 
facilities).

ACTIONS ALREADY TAKEN TO IMPROVE MANAGEMENT
    Since FPS' creation in 1971, various studies and reports have been 
conducted concerning the program and its role in the protection of 
Federal employees, the buildings that house them, and the public that 
conducts business in these buildings. These studies were conducted 
throughout the history of the FPS while it was a component of GSA, and 
have continued since its transition to DHS. Many of these studies have 
highlighted serious management and operational challenges facing the 
program, including systematic funding issues.
    I commend Assistant Secretary Myers for taking a strong, proactive 
role in getting to the root causes of the issues that have faced FPS 
over the last several years and for working diligently to fix them and 
enhance the program's effectiveness. In FY 2005, ICE established a 
Tiger Team to assist FPS in addressing its financial and acquisition 
management challenges and to recommend process improvements. This was 
the result of numerous DHS and Congressional inquiries related to late 
payments to FPS contract guard vendors. Although the Team focused on 
financial and acquisition management problems that had plagued FPS, it 
also identified other management and mission concerns for further 
evaluation. The work of the Tiger Team has resulted in significant 
progress being made in financial and acquisition management over the 
past year. These changes have improved financial and acquisition 
management by boosting compliance with the Prompt Payment as well as 
increasing training and resources to the contracting function.
    Improving Acquisition Efficiency. As mentioned, we have made some 
initial strides on shoring up the acquisition functions. First, the 
acquisition functions have been consolidated under the ICE Head of 
Contracting Activity. Through consolidation, FPS has standardized 
processes and procedures, improved utilization of contracting staff, 
and achieved economies of scale. This directly responds to an audit 
published in October 2006, in which the DHS Inspector General cited the 
need to improve the oversight of the FPS contract guard program in the 
National Capital Region. While this continues to be an area of focused 
attention, I am pleased to report the following significant progress:
        - Hired a Contract Guard Program Manager for the National 
        Capital Region;
        - Conducted a region-wide post audit;
        - Developed and implemented Standard Operating Procedures for 
        the guard program which outline the monitoring, tracking of 
        contract deductions, and suitability processes;
        - Increased the number of Contract Officers Technical 
        Representatives (COTR);
        - Provided enhanced training to all personnel involved in the 
        inspections process; and as previously mentioned,
        - Centralized guard acquisition functions under the auspices of 
        the ICE Office of Acquisition Management.
    For the long term, a study was recently completed to baseline the 
state of the acquisition function at FPS to develop a path forward for 
instituting improvements. The study identified several critical areas 
that require additional focus. These areas have been incorporated into 
our FPS vision moving forward.
    Establishing Sound Financial Management. On the financial 
management front, FPS has struggled to cover all of its costs within 
its fee-based structure. In FY 2006, $29.4 million was reprogrammed to 
offset a projected existing FPS deficit. In FY 2007, FPS is projected 
to be financially solvent due to the implementation of basic financial 
controls and a number of cost-cutting and cost avoidance measures that 
began in FY 2006. These included a streamlining of the Megacenter 
function to reduce unnecessary administrative support costs; reducing 
the FPS vehicle fleet where appropriate; restricting discretionary 
travel, overtime and training; restricting hiring and promotions to 
only the most critical; and deferring non-mandatory space moves, among 
others.
    These cost containment efforts also have enabled FPS to use funds 
for some critical operational needs. For example, in FY 2007, FPS 
conducted a law enforcement basic training class, along with a Physical 
Security Academy (PSA) class. Plans call for two additional PSA classes 
for the remainder of FY 2007. Some key staffing needs are also being 
addressed due to careful financial management. Critical operations 
positions have been announced this year, providing for advancement 
opportunities in both the management and inspector ranks. Moreover, 
each FPS region has been given a defined budget providing for travel, 
training, overtime, as well as for critical equipment and supplies.
    Clearly, implementation of acquisition and financial management 
business process improvements has put FPS on firmer ground. However, we 
also understand that addressing management-related concerns is the 
basis for ensuring the successful implementation of FPS' mission to 
protect Federal facilities. As such, Assistant Secretary Myers formed a 
second Tiger Team in May 2006 to review the FPS operations and 
structure overall. This team's goal was to define clearly the mission 
of the FPS; focus its resources toward that mission to ensure a stable 
working environment; and fully align FPS with ICE and DHS. The results 
of this second review were the foundation for the FPS Comprehensive 
Action Plan (Action Plan) that is now underway.

FPS COMPREHENSIVE ACTION PLAN
    ICE has been engaged in a top-to-bottom review of FPS's operations 
to address critical issues, while continuing to provide the highest 
level of security and protection services to its clients. The move of 
FPS to DHS from GSA presented a unique opportunity for the FPS program 
to increase financial accountability and hone a clearly defined 
homeland security function. We must act now to revamp the program and 
improve its overall position within homeland security.
    As mentioned previously, there is a well-documented case for this 
program. FPS must be refined to set the gold standard for facility risk 
assessments, identifying and investigating high risk incidents, and 
security interventions in Federal facilities across the country.
    In addition, FPS must also play an active role in the National 
Infrastructure Protection Plan (NIPP), as the sector-specific agency 
for government facilities. The NIPP provides a comprehensive framework 
for the protection of government facilities, transportation facilities, 
key infrastructure assets and other facilities from potential terrorist 
attacks, natural disasters and other emergencies. FPS Inspectors 
possess expertise in the full complement of physical security and law 
enforcement capabilities. As a part of their basic training, inspectors 
successfully complete an intensive four-week Physical Security Academy, 
held at our state-of-the-art facility at the Federal Law Enforcement 
Training Center. Consistent with the NIPP, FPS is refocusing on its 
core physical security mission to include:
        <bullet> Enforcing Interagency Security Committee (ISC) 
        security standards;
        <bullet> Conducting timely building security assessments;
        <bullet> Maintaining and overseeing a strong contract guard 
        program; and
        <bullet> Testing and constantly re-evaluating security 
        standards based on risk.
    By leveraging the integration of FPS' security, response, and 
recovery capabilities within the NIPP framework, a layered approach to 
the security of Federal facilities will be achieved.
    Together, the NIPP framework and results from the second ICE Tiger 
Team review provide the underpinnings for the FPS Action Plan. The key 
components of the Action Plan include:
        <bullet> Restructuring and streamlining the program to enhance 
        operational effectiveness;
        <bullet> Developing and implementing a clear strategy related 
        to the role of the FPS as the lead for government facilities 
        within the NIPP;
        <bullet> Leveraging resources in the areas of information 
        collection and criminal investigation;
        <bullet> Strengthening and standardizing the contract guard 
        function; and
        <bullet> Enhancing communication with FPS customers and 
        providing clear expectations of services.
    The coming years will be filled with significant change for the FPS 
program and its dedicated workforce. These changes will result in a 
more focused program that produces greater security at Federal 
facilities and for the people who work and visit these facilities. It 
will also result in better service for the FPS customers and a more 
productive partnership with the FPS program. Our commitment to the 
protection of Federal facilities will remain front and center during 
the refinement process. The mission must be focused and risk-based. 
This is a responsibility that we share with all client agencies. We 
must improve FPS' operational effectiveness and ensure that the primary 
mission is met and that the costs of that mission are fully recovered 
from our fee structure.
    The Action Plan effort will result in a refined and refocused 
workforce composed primarily of inspectors that possess dual 
capabilities for providing law enforcement and physical security 
services that are geared toward high-risk threats and closely aligned 
with the NIPP. In addition, these resources will be realigned to high-
risk locations. This effort will also complete the overhaul of contract 
management within FPS, which will result in improved contract 
compliance, contracting cost reductions for client agencies, and 
appropriate and strong contract management and will address the 
concerns raised by DHS Office of the Inspector General. A critical 
element in the Action Plan is a more active dialogue with FPS partners. 
The FPS program will create a partnership with GSA and customer 
agencies to delegate contract management and other authorities where it 
improves the security posture of the facility and will ensure 
compliance with FPS security standards.
    FPS has established a program management office to track and 
monitor the Action Plan. The program management office will ensure 
Action Plan milestones are met and continue to refine FPS.

PERSONNEL AND RESOURCES
    The President's FY 2008 Budget includes the resources to support a 
refined FPS program. Specifically, it includes an increase in the 
current basic security rate of $0.39 to $0.57 per square foot to 
recover the costs for providing basic security services. The Budget 
provides an additional $97 million in estimated fees above the FY 2007 
level, including $37 million for increases in the demand for contract 
guard services and $60 million associated with cost increases for 
current services. The Budget supports 950 full-time equivalent 
personnel that will be aligned with our NIPP priorities and a risk 
based methodology. The President's FY 2008 Budget fully maintains 
existing levels of contract guards. FPS must collect revenue for its 
services and define its services for its customers.
    Currently, FPS employs about 1,200 people including inspectors, 
special agents, police officers, and support personnel. In addition, 
the FPS program manages approximately 15,000 contract security guards 
that serve as its front line in securing Federal facilities throughout 
the nation. FPS will set security certifications for these contract 
guards and will increase its emphasis on ensuring compliance with these 
standards. Coupled with these contract guards are the FPS inspectors 
who will develop security policy and standards; provide building 
assessments; and monitor agency compliance with security standards. 
These inspectors will also have law enforcement responsibilities. The 
first line of security at Federal facilities will not diminish. A 
realignment of its resources is necessary to improve the security 
posture of Federal facilities. Personnel adjustments will improve FPS 
mission execution, enhancing career opportunities for employees, and 
improving customer service. ICE is employing various strategies to 
align the workforce including Voluntary Early Retirement Authority. ICE 
and FPS will work towards providing its employees with voluntary 
opportunities to move into new positions and will provide other 
incentive programs including developmental opportunities. These 
developmental opportunities will provide employees with the ability to 
train for new roles within FPS, ICE and DHS.
    Assistant Secretary Myers and I are committed to involving the 
program's employees in the refinement process. This includes involving 
FPS employees in determining areas for improvement and providing 
regular communication to employees, as well as FPS customers. To date, 
over 700 employees have taken advantage of the opportunity to 
participate in various studies. We appreciate the input of our 
employees and will continue to keep them abreast of refinement efforts 
through periodic updates and newsletters.
    There is no question that this will be a period of change for the 
FPS workforce. We realize that the employees are the greatest resource 
in this vital program. The Action Plan effort will result in a more 
stable work environment that is focused on its core mission. Employees 
will be provided growth opportunities through the inspector ranks. The 
current FPS workforce is deeply committed to the mission and we are 
confident that they will meet all challenges to create the premier 
physical security program in the Federal government.

CONCLUSION
    Strengthening the FPS program as described in this testimony will 
result in a more effective security service program for our Federal 
workforce and the people who conduct business with the Federal 
government, in addition to addressing numerous intra-governmental 
studies and customer complaints. The men and women of the FPS are 
dedicated and believe in the core FPS mission, as does the DHS 
leadership team. We are aggressively moving forward to succeed in that 
mission.
    It will take several years to accomplish our efforts. ICE and FPS 
now have the right plan to strengthen this vital capability.
    Thank you again, Mr. Chairman and Ranking Member King, for holding 
this important oversight hearing. I would be pleased to answer any 
questions.

    Chairman Thompson. Thank you very much.
    I yield myself 5 minutes for the first set of questions.
    Mr. Taylor, could you explain to the committee what 
improvements the OIG most recently called for in FPS and 
whether any of those improvements have been installed?
    Mr. Taylor. Yes, sir. Thank you. We had five 
recommendations for improving internal controls. The department 
concurred and has taken action on three of the five. Most of 
these had to do with doing follow-up on the requirements, 
making sure that the quality assurance specialists are looking 
in the system they use to maintain the requirements of the 
contract guards, and change their operating procedures.
    The plans for meeting those requirements, the department is 
meeting or has told us they are going to meet. We have not 
followed up to make sure that has happened, but they do have 
the corrective action plans in place.
    There were two areas where we do not have resolution. One 
was on the request or recommendation that the department go 
back and look at prior billings from the contract guard 
services. When you have the number of inadequacies in the 
contract guards that we discovered and that were in their own 
systems, there is a provision that allows FPS to go back and 
deduct payments. We recommend they go back and do that.
    FPS has told us that because they only gave themselves in 
the contract 30 days to go back and make those deductions, that 
they are probably unable to go do that. So they did not concur 
with that recommendation. At the time that they were trying to 
identify these inadequacies in the contracts, we have to recall 
they also were not making their payments to the contracts in 88 
percent of the cases. So they really didn't give themselves 
enough time to go back and adequately look at the contract 
vouchers to make sure the services were provided and the 
quality assurance specialists weren't at the time following up 
enough to make sure they could make a case for making the 
deductions.
    The second area was broader. It was that they needed to 
look at the voucher process and systems and improve their 
internal controls. We have not heard back from the department. 
I think they had a response due to us March 30, and I think 
they are still working on it. Those were the two areas where we 
don't concur.
    Chairman Thompson. Now, are you saying it was due March 30?
    Mr. Taylor. Yes, sir.
    Chairman Thompson. Mr. Schenkel, can you respond to those 
two issues as to whether or not there is some plan to look back 
at prior billings, or if not, what are the future plans on 
looking back as the IG has indicated? And to some degree, 
whether or not there are enough internal controls that have 
been set up with the vouchering system going forward?
    Mr. Schenkel. I think I can answer the first part first in 
a little bit greater detail. As you may know, we have 
transitioned from GSA into ICE and picked up on their financial 
acquisition management program. We have made some great 
strides. In fact, back in 2006, we have established the Debt 
Management Center where all invoices are consolidated, and 
invoices are sent to. So we have the ability to track them, and 
then they are reviewed before they are sent out.
    We have made an agreement to go back to 2006 and review all 
of the invoices from the national capital region, which Mr. 
Taylor addressed here as part of the ones that have not been 
addressed. We are reviewing all of the fiscal year 2007 
invoices. In addition to that, we are looking at the 
feasibility and cost feasibility, if you will, of going back 
prior to the 2006 timeframe.
    We have a limited staff. I am a bit concerned about how 
much we would recoup from these invoices that may not have been 
prepared properly, or we may have been overcharged for. I am 
not sure that it would be a benefit to the Federal Protective 
Service or the federal government at this point. I think that 
it bears review and we will do that.
    In regards to the oversight of the individual contracts and 
the contracting within the national capital region, we have 
assigned additional personnel to accumulate and review the 
contracts the invoices, and a second person who will take those 
and then do a second review before they are passed forward for 
payment.
    Chairman Thompson. Thank you.
    So is it your expectation now that the 88 percent ratio of 
being late with payments will be reduced?
    Mr. Schenkel. I can say safely that since fiscal year 2007 
began, we are at 99.7 percent completion in payment for all of 
our invoices.
    Chairman Thompson. Can you, just for the members of the 
committees' information, did you identify why those invoices 
had such a delinquent status in the department to start with? 
Why was FPS late on paying invoices?
    Mr. Schenkel. We did not have sufficient staff in place for 
the review and passing them through the appropriate channels. I 
think with the establishment of the Debt Management Center up 
in Burlington, Vermont, where all of the invoices now go for 
review, I think we have accomplished a great deal in that area.
    Chairman Thompson. So is it your testimony that we are 
doing 99.7 percent?
    Mr. Schenkel. We are doing 99.7 percent in fiscal year 
2007.
    Chairman Thompson. That is good. That is excellent.
    Are you aware of that, Mr. Taylor?
    Mr. Taylor. No, sir.
    Chairman Thompson. We might have to ask you to look at 
that. That is an excellent record.
    Mr. Taylor. It is.
    Chairman Thompson. You are to be congratulated if it can be 
documented.
    I now yield to Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Schenkel, like many on this committee, I am very 
concerned that some contractors in the D.C. region were not 
performing their security services according to the terms of 
their contracts, such as having appropriate security clearances 
for their posts. Who is responsible for monitoring this?
    Mr. Schenkel. The contracting officer, the technical rep 
that had to be assigned to that specific contract. That is one 
of the areas that we are moving to improve in by going to an 
all inspector-based force to provide them contracting agency 
technical rep training as well, so they can ensure compliance 
with the contract and appropriate performance of the contract.
    Mr. Bilirakis. Thank you. Now that FPS will be realigning 
its workforce based on risk, can you ensure that there will be 
sufficient security at all federal buildings throughout the 
country?
    Mr. Schenkel. Based on risk, yes, I can. I think that is 
why we made the determination that it is necessary to go to the 
inspector-based force. I think that at a point, because all of 
our law enforcement capabilities are also entwined with our 
inspectors, that a distraction could possibly be created by 
federal police officers responding and patrolling, as opposed 
to paying attention to the specific building security 
assessments in a timely manner and providing that oversight, 
and placing those appropriate countermeasures, again based on 
risk.
    Risk continuously changes. It is not a static. It is 
something that has to be reviewed on a regular basis. I think 
that is the justification why we would be able to enhance the 
security at federal facilities, as opposed to detract from it.
    Mr. Bilirakis. Okay. Can you assure this committee that 
while reducing the number of FPS employees, safety and security 
of federal property, as well as personnel and visitors, will 
not be compromised?
    Mr. Schenkel. Again, I would return back to my comments 
regarding the inspector-based force. We have 50,000 contract 
guards that are certainly our most visible security 
countermeasure. By appropriately assessing and staying abreast 
of the threats that surround federal buildings, both from 
criminal elements and terrorist elements, that we are in fact 
enhancing the security of the buildings. Plus, our 
relationships are strengthening with local law enforcement for 
initial response. I think that the safety and security of our 
federal employees and those that do business in our federal 
buildings are being enhanced.
    Mr. Bilirakis. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    Mr. Schenkel, can you explain to the committee the role 
between the inspectors, as I understand it, and just the 
security personnel?
    Mr. Schenkel. Security personnel being the contract 
security guard, sir?
    Chairman Thompson. That is correct.
    Mr. Schenkel. Yes. The contract security guards are a 
countermeasure. They provide access control, fixed position 
monitoring, and in some cases some patrol functions. They are 
in place based on the expertise that is displayed by a Federal 
Protective Service inspector. The Federal Protective Service 
inspector, as we move to the all inspector-based force, will 
also have additional contracting technical representation 
training to ensure that their performance is up to standard and 
maintains the standard that meets or exceeds the federal 
standards that we have established.
    Chairman Thompson. So are those individuals in a 
supervisory capacity of the contract screeners? Do they work 
the same post as the screeners? What is the relationship?
    Mr. Schenkel. The relationship primarily is with the 
contract guard company. The contract guard company is held 
responsible for the performance of their contract guards. The 
Federal Protective Service inspectors, and in my view, every 
one of us that belongs to the Federal Protective Service, is an 
extra set of eyes to ensure compliance with the contract. If 
there is a lack of performance or a denigration of performance 
on behalf of a contracted security guard, we go to that 
contractor and take corrective action.
    Chairman Thompson. So all your inspectors have received 
this training and everything necessary for that to take place?
    Mr. Schenkel. Not all of them yet. That is part of the 
transition plan or the refinement plan for the Federal 
Protective Service.
    Chairman Thompson. Please provide us with the written 
transition plan for the department that includes timetables.
    Mr. Schenkel. Yes, sir.
    Chairman Thompson. I now recognize the gentlelady from the 
Virgin Islands, Ms. Donna Christensen.
    I am sorry, Ms. Norton from the District of Columbia.
    Ms. Norton. Thank you, sir. I do believe I was here first.
    Mr. Taylor, given the contracting issues that you report, 
do you believe that FPS would be better able and more 
efficiently to perform its duties if it were independent within 
the Department of Homeland Security, rather than a part of ICE? 
What does being in ICE give it?
    Mr. Taylor. We haven't addressed that.
    Ms. Norton. What is it doing there? What does it have in 
common? Why does that help FPS?
    Mr. Taylor. Sure. I am not all that familiar with the 
legislative history of how FPS became part of DHS other than 
that--
    Ms. Norton. I am asking you another question, sir.
    Mr. Taylor. Okay. I am sorry. I am having trouble hearing 
you. I am sorry.
    Ms. Norton. I am sorry. I am asking you about FPS now as a 
part of ICE, as opposed to FPS being independent within the 
Department of Homeland Security. What benefit is it to 2 
million federal employees to millions more who go to Social 
Security and visit our buildings for other services, millions 
who come as visitors? What benefit is it to have the agency 
absorbed not only within the Department of Homeland Security, 
but within ICE, particularly considering the problems of 
efficiency you have found?
    Mr. Taylor. Sure. I think that initially no matter where 
FPS would have been located within DHS, the problems would have 
been similar, for two reasons, one of which is specific to FPS 
and the problems that they had in terms of getting adequate 
funding and having adequate funding, even when they were at GSA 
and coming over to DHS.
    Secondly, as our other audits in the financial statement 
area have indicated, there weren't a whole lot of places in DHS 
they could have gone where they would not have had similar 
financial management issues, because DHS's financial management 
systems have not been able to get--
    Ms. Norton. My question is about making it independent 
within DHS. I am saying, what value is it? We see a bureaucracy 
on top of a bureaucracy. There are lots and lots of complaints 
about DHS and bureaucracy. But when you have a bureaucracy 
within a bureaucracy, I am trying to find out what is the 
value?
    Mr. Taylor. I think from our perspective, if you created 
FPS as a separate entity within DHS, which I guess that is the 
core of your question--should it be independent within DHS.
    Ms. Norton. That is what it was at GSA.
    Mr. Taylor. Right. If it is independent within DHS, you 
would have to recreate all the infrastructure that they have at 
ICE.
    Ms. Norton. Why? That is what DHS is there for.
    Mr. Taylor. Yes, ma'am.
    Ms. Norton. DHS, that is supposed to be the overhead and 
the infrastructure. Is this the ICE infrastructure we are 
dealing with, who then reports to the DHS infrastructure?
    Mr. Taylor. By ``infrastructure,'' ma'am, I am talking 
about the financial systems, the procurement support systems. 
DHS corporate doesn't support an entity the size of FPS 
directly, and so they would have to create that kind of entity 
in order to support them, if they were independent within DHS. 
As an initial reaction to the question, the benefit is that 
they don't have to recreate all that.
    Ms. Norton. The FPS is the federal police force for every 
federal agency, for every federal entity. Mr. Schenkel, have 
you ever led a line police force? Do you have any police 
training yourself of any kind?
    Mr. Schenkel. Yes, ma'am. I was the only civilian, if you 
will, that led sworn police officers in the Chicago Police 
Department.
    Ms. Norton. Yes, I have your resume here, and you boast of 
that. I am asking you another question. The question is, you 
are now essentially the police chief for the federal police 
force. That position has always been held by somebody with line 
law enforcement experience, not only management experience. I 
am asking you, have you any law enforcement experience other 
than the management experience you had in Chicago and in the 
federal government?
    Mr. Schenkel. I am not a sworn officer, ma'am, if that is 
what you are asking.
    Ms. Norton. I am concerned about the reduction in sworn 
officers. Let me read to you what the difference is between the 
inspectors and the sworn officers. Officers, in homeland 
security terms, peace officers have as their mission, and by 
``peace officer,'' that is somebody who carries a gun, who has 
training the same place as the Capitol Police train.
    Mr. Chairman, we sure bulked up here, a 50 percent increase 
in the Capitol Police Force. We see a huge decrease in the 
police force who guards our constituents in federal buildings, 
not to mention 2 million federal workers. The mission was to 
interrogate suspects who display violence and irrational 
temperaments, seek out and question witnesses and suspects, to 
preserve the peace, prevent crimes, arrest offenders, provide 
crime prevention guidance, and police assistance during 
emergency situations.
    Now, let's look at the new mission for the FPS that the FPS 
relies on for inspectors, who I understand are also peace 
officers. Are they all peace officers?
    Mr. Schenkel. All of our inspectors, ma'am? Yes, ma'am, 
they are sworn officers.
    Ms. Norton. All right. Here is what these peace officers 
now have among their duties: presents employee awareness 
programs; conducts crime prevention studies; conducts physical 
security surveys; and coordinates minor repairs of electronic 
security systems.
    I have to ask you, Mr. Schenkel, what then is to be done 
about--and here I am again quoting the mission of the FPS 
officer--investigating criminal incidents, disseminating 
terrorism-related intelligence, and conducting joint terrorism 
task operations.
    Who will perform these functions if the FPS officer is 
either being converted into some kind of an inspector and the 
rest is falling to security guards, most of whom are not even 
peace officers, as I understand it. Who is to perform these 
core terrorism and crime prevention functions with the rapid, 
rapid decrease in the number of peace officers, people who 
carry guns, people who are the same kind of police officers 
that guard and guarantee the safety of members of Congress? Who 
is to do this job?
    Mr. Schenkel. I am glad you asked that question, ma'am, 
because I think that gives us an opportunity to really explain 
the full function of the Federal Protective Service. It is not 
just police officers and it is not just inspectors. It is a 
system of systems, if you will, to include membership on joint 
terrorism task forces around the country that pass intelligence 
information, terrorism-related information, to our regional 
intelligence agents, that also pass that then on to our 
regional directors.
    The system then has a policy or a performance measure that 
then disseminates that kind of information out to the 
appropriate sources to include our contract security guards 
when necessary in appropriate functions. So it is not just the 
function of the federal police officer to respond to an 
incident. It is an overall system.
    Ms. Norton. I just read what the function was, sir. I am 
trying to find out who is going to do the core terrorism and 
patrol functions, for example. There is a huge reduction in 
peace officers. And yet you have MOUs with local law 
enforcement--or so it is claimed; we have not been able to get 
any of them--that says that they will agree to do this police 
function. How can that happen if it is security guards who have 
replaced the peace officers?
    Mr. Schenkel. Because that is exactly the way the system 
functions, ma'am. We have 15,000 extra sets of eyes and ears 
out there in addition to our sworn officers, who are officers 
and inspectors, and our memberships on the joint terrorism task 
forces, and our relationships with local law enforcement, who 
are always the primary--
    Ms. Norton. Mr. Chairman, I appreciate this time. I just 
want to indicate that the point of the question was that an MOU 
with the Dallas police force is that you will do what we are 
not doing, and the Dallas police force expects you to have a 
peace officer who can in fact make the arrest, and that will 
not be the case if the contract guards, or in many cases, no 
guards at all because of the huge reductions at FPS.
    I thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    For the record, does that security guard have arrest power?
    Mr. Schenkel. No, he does not have arrest power, other than 
citizen's arrest power.
    Chairman Thompson. So they don't have--
    Mr. Schenkel. No, they are not sworn officers, sir.
    Chairman Thompson. So those 15,000 people you reference 
that act as eyes and ears really can only just see the 
situation and report it to somebody else.
    Mr. Schenkel. And they have limited response capability 
based on their positions.
    Ms. Norton. Call 9-1-1, in other words.
    Chairman Thompson. Thank you.
    I now yield 5 minutes to the gentleman from Washington, Mr. 
Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    I will just start out with, I was a sworn police officer 
for 33 years; rose from the ranks just up until 2 years ago; a 
patrol car detective; SWAT commander; precinct commander; and a 
sheriff for the last 8 years of my career in Seattle.
    I do understand the importance of a layered approach to law 
enforcement. We had community service officers. We had 
screeners. We had private security. We had retired deputies who 
had limited arrest powers within certain buildings within the 
county. And then we had our deputies and investigators who made 
up the rest of the 1,200 employees with the sheriff's office in 
King County.
    But I want to make sure that we are headed down the right 
path for the right reasons this morning. So I understand the 
concept, but is it really the driver behind the decision to cut 
250 commissioned people to provide better service? Or is really 
a financial decision that we are making here? I do understand 
there are some financial issues that you are dealing with.
    Do the security guards get paid less than the commissioned 
and inspectors?
    Mr. Schenkel. Yes, they do. Contract security guards get 
paid less.
    Mr. Reichert. What are the savings that you would estimate 
that you might make in making that change from 250 commissioned 
to the security guards?
    Mr. Schenkel. Sir, in all due respect, they are not truly 
related in their relationship as to their performance or their 
functions. The Federal Protective Service, the police officers, 
the inspectors, provide the oversight and in some cases the 
response, where the security guards provide the perimeter 
security, the limited control of access, et cetera.
    Mr. Reichert. I do understand that. We have the same 
arrangement with the Seattle Police Department and the King 
County Courthouse, where we have a contingent of men and women 
who work within the courthouse who do have arrest powers on a 
limited basis only within that building, and then call on the 
Seattle Police Department for backup. But there is a savings 
that you will realize if you cut 250 commissioned FPS versus 
hiring.
    Are you going to hire an additional number of security 
guards?
    Mr. Schenkel. There is no anticipated plan to hire 
additional security guards. The focus will be to effectively 
employ and train the remaining members of the Federal 
Protective Service.
    Mr. Reichert. So the 250 that would lose their jobs will be 
retrained?
    Mr. Schenkel. First of all, no one is going to lose their 
job. Everyone has an opportunity, or will be given 
opportunities for a variety of methods to transition out of the 
Federal Protective Service--combinations of early retirements, 
separation incentives. But most importantly, there will other 
opportunities, primarily within ICE, that they will qualify 
for.
    Mr. Reichert. So is it a matter of then managing the 15,000 
security personnel that you already have in a more efficient 
way to cover the loss of 250 bodies that were doing some job 
prior to this cut?
    Mr. Schenkel. Yes, sir. The most effective use of our 
Federal Protective Service can be in the effective management 
and emplacement of control measures.
    Mr. Reichert. What is the command and control set up? Who 
do they report to? What is the command structure for the 
security guards? Who is responsible for managing the security 
guards? Do they have a chain of command that they follow?
    Mr. Schenkel. We have a contract program manager in every 
one of our regions. In addition, the regional director and his 
staff, which is then broken down into districts and areas, they 
provide the oversight as well.
    Mr. Reichert. These are not security company employees. 
These are federal government?
    Mr. Schenkel. No, these are Federal Protective Service.
    Mr. Reichert. Were they commissioned people?
    Mr. Schenkel. I am sorry?
    Mr. Reichert. Were they commissioned people, or are they 
commissioned people?
    Mr. Schenkel. Yes, they are sworn officers. Yes.
    Mr. Reichert. Mr. Chairman, I have no further questions at 
this time. I yield.
    Chairman Thompson. Thank you very much.
    We now yield to the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    I am very happy we are holding this hearing today. I think 
it is very important to get eyes on what is going on with FPS.
    Mr. Taylor, this first question is for you. In his 
statement, Mr. Schenkel noted that the core mission of FPS is 
of course to do the assessments on federal installations across 
the country, but we are cutting the time we do those from 4 
years to 6 years. Is that correct?
    Mr. Schenkel. There is a proposal we are looking at. Right 
now, our level three, level four buildings get an assessment 
every 2 years. Our level one and two buildings get an 
assessment every 4 years, again, based on risk and other 
determining factors that coincide with some other DHS programs. 
We may extend that. We may contract that. It is still to be 
determined.
    Mr. Carney. Okay. When do you anticipate you are going to 
have that plan in place?
    Mr. Schenkel. The plan right now is to maintain the level 
threes and fours at every 2 years, and the ones and twos every 
4 years.
    Mr. Carney. Oh, it is?
    Mr. Schenkel. Yes.
    Mr. Carney. Okay. Very good.
    I have a little bit of background in counterterrorism, too, 
and I am watching how quickly enemies evolve and how quickly 
they learn our vulnerabilities. I think it would be an 
egregious oversight to extend the amount of time we do these 
reviews. I think we need to do those as diligently and as often 
as is practical, not extend them to 6 years certainly.
    I had a couple of questions also for Mr. Schenkel, even 
though you answered Mr. Taylor's questions. We are losing at 
the street level a number of officers, but we are plussing up 
deputy positions. Is there a way to justify that?
    Mr. Schenkel. I am sorry. I don't understand. Are you 
speaking of the inspector positions?
    Mr. Carney. The deputy director positions in DHS. Is that 
correct? At the FPS level? We are losing street-level FPS 
officers, correct?
    Mr. Schenkel. That is correct.
    Mr. Carney. Okay. We are plussing-up or adding deputy 
directors?
    Mr. Schenkel. No, we are not adding deputy directors. What 
we are doing is filling vacancies and posting them as internal 
announcements with the intention of filling most, if not all, 
of the open positions with people from internal to the FPS.
    Mr. Carney. Okay. No further questions at this time.
    Chairman Thompson. Thank you.
    We now yield 5 minutes to the gentleman from California, 
Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman, and thank 
you for this hearing.
    Colonel Schenkel, your experience in the Marine Corps, I 
would take it, has given you a background in looking at risk 
and assessing risk and attempting to come up with comprehensive 
plans to deal with the particular threat.
    Following up on Mr. Reichert's questions, can you tell us 
that this plan that has been laid out and is going forward is 
based on a more efficient array of your personnel and assets to 
protect the mission you have, which is to protect the federal 
buildings? Or is it an effort to try and do a job with 
restrained resources? Those are two different things, or they 
could be the same thing, but I would really like to get a sense 
of where you are going on this.
    Mr. Schenkel. We are looking at the more effective use of 
the personnel that we have available. Our determination on the 
numbers was done over a series of months, but one of the most 
recent was done in a regional directors conference in 
approximately the February timeframe. What we did since that 
time is then validate that process and distribution of our 
assets and resources, that being the effective use of the 
inspector force.
    Mr. Lungren. Let me ask a very simple question. If I am an 
employee at a federal building in San Francisco, and I go to 
work there every day. What difference do I see when this plan 
is in effect versus what it used to be, number one?
    And number two, if I see something that concerns me about 
someone who might be a danger to me, my fellow employees or the 
building, to whom do I report that? And is it any different now 
under this plan than it was before?
    Mr. Schenkel. It will be completely transparent.
    Mr. Lungren. So what do I do? Who do I say, ``I saw a 
suspicious package out there.'' Do I tell the security guard? 
Is there someone else I should tell? And has the response 
changed?
    Mr. Schenkel. No, the response has not changed. In all but 
the exclusive jurisdictional facilities that FPS has sole 
jurisdiction for, the primary response is and always has been 
call 9-1-1. You can also, if you do see something and you do 
not feel the exigent circumstance, you can always contact the 
contract security guard or one of the Federal Protective 
Service employees in the area, who will then have to call in 
appropriate authorities on top of that to investigate, 
depending on the circumstances.
    Mr. Lungren. What percentage of your contract security 
guards carry weapons?
    Mr. Schenkel. I am not 100 percent sure. I would have to 
get back to you on that, sir.
    Mr. Lungren. Is it more or less than 50 percent?
    Mr. Schenkel. Much more than 50 percent. I would say the 
preponderance of them carry weapons.
    Mr. Lungren. And they have only citizen arrest powers. 
Correct?
    Mr. Schenkel. They also have the right to protect 
themselves and to protect the lives of others with those 
weapons, if that is what you are asking, sir.
    Mr. Lungren. Let me ask you this. In June of 2006, a 
visitor to the DHS headquarters here in D.C. used a fake 
matricula consular card as identification and was allowed to 
use the building. According to the article that I read, this 
card was not a very good fake ID. It listed Tijuana, British 
Columbia as the date of birth, and the address as 123 Fraud 
Boulevard. I know that is one incident, a kind of obvious kind 
of thing.
    What do you do in response to a breach of security like 
that? How well trained are the security guards to be able to 
identify something as fake? And in that particular instance, 
can you tell me what happened to the guard or guards involved 
that allowed this person entry into that building?
    Mr. Schenkel. In regards to that particular incident, the 
matricula consular card is not an authorized, or is no longer 
an authorized form of identification. Since that time, we have 
also instituted and enforced that only government picture IDs, 
government-issued ID--that could be local, state or federal 
government identification card--is the only means of 
appropriate identification that are authorized.
    In regard to the individual contract security guard who 
allowed that in, I do not know, but I can get the answer for 
you.
    Mr. Lungren. Wouldn't it be good to make sure that when 
lapses like that occur, that at least someone is held 
responsible--someone or some few are held responsible?
    Mr. Schenkel. Absolutely, sir.
    Mr. Lungren. So you will get back to us on what happened in 
response to that?
    Mr. Schenkel. Yes, sir.
    Mr. Lungren. Thank you very much, colonel. I appreciate it.
    Chairman Thompson. Thank you very much.
    In addition to that information, can you identify the 
company that that particular security guard worked for and 
whether or not the department took any disbarment or any 
actions against them for that breach?
    Mr. Schenkel. Yes, sir.
    Chairman Thompson. Thank you.
    I now recognize the gentlelady from the Virgin Islands, Ms. 
Christensen, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    If this question has been asked, I would apologize. But I 
note that the risk assessments which are done now at 4 years 
would be moving to be done every 6 years. Mr. Schenkel, could 
you explain that?
    And Mr. Taylor, could you comment on that as well? The 
security risk assessments which are now being performed every 4 
years at some federal buildings, why are they now going to be 
done every 6 years?
    Mr. Schenkel. Ma'am, they are not going to be. That was a 
proposal that was put on the table based on risk, and we are 
going to maintain the assessment at the 2-year intervals for 
the level three and four buildings, and the 4-year level for 
the level one and two buildings.
    Chairman Thompson. Gentlelady, Mr. Carney asked part of 
that question earlier.
    Mrs. Christensen. Okay, thank you.
    I think you have answered this one about the staffing. 
Although you are reducing the staff, it is commensurate with 
the risk assessments that are being done? The staffing levels, 
even though they are being reduced, are appropriate to the risk 
assessments?
    Mr. Schenkel. Yes, ma'am, because the inspector force are 
the people who perform the security assessments at the 
buildings. The federal police officer is not authorized to do 
that because he or she is not trained. An inspector is a 
federal police officer with the additional training of a public 
security assessment specialist.
    Mrs. Christensen. Are you reducing contract and staff, or 
just staff, just the permanent staff?
    Mr. Schenkel. The contract guard people will remain fairly 
stable at roughly 15,000.
    Mrs. Christensen. The department is not moving permanent 
staff out to put them on contract, are they?
    Mr. Schenkel. No, ma'am.
    Mrs. Christensen. Because that has been a practice in the 
past.
    Mr. Schenkel. Not in the Federal Protective Service case at 
this point, ma'am.
    Mrs. Christensen. The question was being asked about the 
limitations of the guards, because you talked about officers. 
What was the term you used?
    Mr. Schenkel. The inspectors.
    Mrs. Christensen. The inspectors.
    Mr. Schenkel. Yes, ma'am.
    Mrs. Christensen. Your contract people would not be 
qualified as inspectors, would they?
    Mr. Schenkel. No, ma'am. They are the officers that you see 
in uniform that provide access control very similar to the way 
that this building is protected.
    Mrs. Christensen. And yet with the reduction in the staff 
and the contract guards not being law enforcement officers, you 
still are meeting the requirements, you are saying?
    Mr. Schenkel. Yes, ma'am.
    Mrs. Christensen. Are you reducing your staff because of 
funding, or because of the assessment?
    Mr. Schenkel. We determined that the direction of the 
Federal Protective Service had to be inspector-based. Based on 
the numbers of buildings and the requirements for the 
assessments, we determined the appropriate number.
    Mrs. Christensen. I don't know if Mr. Taylor has any 
responses to any of my questions. They were directed to Mr. 
Schenkel, but if you had a comment, I would take it.
    Mr. Taylor. I can offer one comment, ma'am. I think the 
critical issue that you are getting at it what is the critical 
mass for FPS to perform its core function. To be honest, we 
haven't seen any more detail in the IG's office than what has 
been offered in testimony and what is in the 2008 budget 
presentation.
    So we don't know any more of the details. But in looking at 
this, our concerns would be what is FPS's assessment of its 
core mission, and what is the critical mass to achieve the core 
mission, which is what I think these questions are getting at.
    Mrs. Christensen. Exactly.
    Mr. Taylor. And so what is their assessment of what it 
would take, and how are they going to meet that. That is the 
kind of thing we would be looking for when we see the detailed 
plan.
    Mrs. Christensen. Mr. Chairman, I don't have any further 
questions at this time.
    Chairman Thompson. Thank you very much.
    One of the questions, Mr. Taylor, I think you could help 
this committee with is part of your review found people with 
expired certifications. You found guards who at the time of the 
review were not on. You found guards with clearance lacking. 
Let me get another point. You found some people with non-
citizenship papers.
    Mr. Taylor. We found individuals who were non-citizens who 
didn't have their work permit cards with them.
    Chairman Thompson. Guarding federal buildings?
    Mr. Taylor. Yes, sir.
    Chairman Thompson. Mr. Schenkel, can you assure us that 
those items that Mr. Taylor's review found, that if he went 
back with a subsequent review, that all of that has been 
cleared up?
    Mr. Schenkel. I would be cautious to say ``all,'' but I 
will say the greater portion of it.
    Chairman Thompson. Mr. Taylor, can you say, was the fault 
the contracting officer? Or was it the so-called ``inspector'' 
not checking on the contract? If we are moving to this security 
force and we are elevating inspectors, I am trying to see how 
somebody would find out whether or not these items your 
investigators identified could be picked up and at what point.
    Mr. Taylor. Sure. When we looked at the national capital 
area, for example, where you have over 5,000 contract guards, 
you had 12 quality assurance specialists that FPS has, who are 
supposed to do the reviews and make sure, and do the site 
visits, in addition to the contracting officers. You also have 
a system called CERTS where they maintain all the requirements 
of the contract guards are supposed to meet. All we did was go 
into CERTS and pull out expired certifications and just verify 
whether or not the guards were actually on duty, and in 30 
percent of the cases, they were.
    Chairman Thompson. So it was a fairly simple review 
process?
    Mr. Taylor. Yes, sir. Just doing that visual verification 
and then to ask things like we knew certain individuals weren't 
U.S. citizens, but we asked for their work permit cards and 
inspected them. We knew at certain facilities you needed a top 
secret or secret clearance. Did they have them? Were they 
properly adjudicated? And to make sure that all their 
certifications were in place. We could go through their 
systems, sample it, pull it out, and then went to verify the 
results.
    Chairman Thompson. I think, Mr. Schenkel, you can see a 
little concern on our part. If the department is going in the 
private contracting direction, whether or not there is ample 
oversight for that to occur, or do we need to put the brakes on 
it and say, ``Look, we are doing something that causes us more 
concern.''
    I am concerned that those people don't have a rest hour. I 
will be honest with you. When I see the other mistakes 
occurring, I am even more concerned that you have people who 
are non-citizens, without work permits. You have people in 
sensitive areas without the proper clearances. You have people 
who should be armed who are not armed.
    Obviously, all this could be readily picked up by just 
going to the file. I understand the layered approach, but if in 
fact all the layered approaches didn't pick this up, then we 
don't have much of a system. That is a concern.
    I now yield to the gentlelady from New York, who would be 
impacted by this process, to Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    You know, this is a very interesting hearing. As we are all 
the way to the first line of defense for over 8,000 buildings 
throughout our nation, the Federal Protective Service plays a 
very important role in the Department of Homeland Security's 
mission of keeping Americans safe. Although small in size, with 
approximately 1,000 employees, evidence of hard work done by 
FPS can be seen anytime someone walks into any federal building 
administered either by GSA or DHS, or so we thought.
    At the same time, FPS appears to have many of the same 
problems that plague the entire department. Its contracting 
situation, in my estimation, is really a huge mess. Its 
leadership looks to be without direction. Employee morale is 
low. And the entire agency appears to be in limbo, currently 
stuck within ICE, unable to find a home in which it more 
naturally fits.
    I simply cannot understand how at a time when the U.S. is 
spending more than ever on security, we can afford to reduce 
the workforce that oversees the protection of our nation's 
buildings.
    Director Schenkel, can you tell us, of the over 300 
employees you have proposed removing from FPS, how many work in 
New York City?
    Mr. Schenkel. If you can give me 1/2 second, I can tell 
you: 101, in the region. I would have to break that out and 
find exactly how many were in New York City.
    Ms. Clarke. Okay. I would be really interested in that, 
simply because based on what you have said today, that there is 
an evolution of the mission of the FPS. It seems to shift a lot 
of the responsibility into integration of contractors and local 
law enforcement, which has historically for the city of New 
York been a huge burden.
    I wanted to find out from you, and sort of following the 
line of the gentlewoman from the District of Columbia, Ms. 
Holmes Norton. Can you tell us what type of incident command 
structure has been put in place to avoid jurisdictional 
conflict?
    Mr. Schenkel. Particularly in New York City?
    Ms. Clarke. That would be great, but I am sure it is 
applicable wherever we go where you are shifting the burden to 
the local jurisdictions and integrating contractors.
    Mr. Schenkel. Yes, ma'am. That is kind of a broad question.
    Ms. Clarke. Yes, but it is a very simple question because 
when an incident occurs, we want to know who is responsible for 
arrest. We want to know who is responsible for containing any 
problems that may occur, and that they have the skills and 
ability to do so, and that the financial burden of doing so 
does not fall upon municipalities.
    So I want to get a sense of what our role in the context of 
what you have created actually is. That calls for an incident 
command structure. Do you have one?
    Mr. Schenkel. Yes, ma'am, we do. I am a little confused as 
to whether we are talking about a major incident or an 
individual act of aggression, say, like violence in a workplace 
or something.
    Ms. Clarke. Whichever scenario you see fit.
    Mr. Schenkel. Our contract security guards do have 
authority to respond to a workplace incident, shall we way. 
Let's just start a scenario here.
    Ms. Clarke. Your contractor or--
    Mr. Schenkel. The contract security guard and the FPS 
police officer have the authority to respond. The FPS police 
officer or inspector would have the authority to make the 
arrest. The contract security guard, if you will, does have the 
authority to contain the situation, to include restraining any 
individual.
    Ms. Clarke. And how do they go about this restraint?
    Mr. Schenkel. Through their training, ma'am.
    Ms. Clarke. Through their training?
    Mr. Schenkel. Yes, ma'am.
    Ms. Clarke. It just seems to me that, and I am a New 
Yorker, so someone who is unlicensed to effect an arrest is not 
a peace officer, and would not go very far with your average 
upstart in containing a situation. Who do they report to when 
it goes beyond their specific protocols as a security agency?
    Mr. Schenkel. There would be a simultaneous call, not only 
for the immediate action of a contract security guard that may 
be on-site, but there would be a simultaneous call to either 
local law enforcement or a federal police officer, whichever 
one was in the closest proximity based on the priority of the 
crime.
    Ms. Clarke. In closing, Mr. Chairman, I would like to get a 
little bit more detail on response. It can be a local event. It 
can be a terrorist event. What is the specific incident command 
structure that is put in place? Particularly, why don't we use 
New York City as an model.
    Mr. Schenkel. Okay.
    Ms. Clarke. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    One of the things we will look at is whether or not we are 
pushing more on states and locals to secure federal properties. 
I came out of local government, and if what I am hearing is 
more of a burden on local law enforcement to do what we are not 
doing by contracting with these local security agencies, I will 
be concerned to look at that likewise.
    We will now recognize the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and thank you, Mr. 
Ranking Member, for hosing these hearings. We greatly 
appreciate it.
    Mr. Schenkel, let me move as expeditiously as possible. 
Currently, you are paying 39 cents per square foot for the 
fees-for-services. Is this correct?
    Mr. Schenkel. Basic security fee is 39 cents. Yes, sir.
    Mr. Green. Would you explain what that means, please, the 
39 cents-a-foot?
    Mr. Schenkel. Every square foot of GSA property or leased 
property under GSA, the tenant is assessed a 39 cent-a-square-
foot fee.
    Mr. Green. You are requesting that this fee increase to 57 
cents a foot. Is this correct?
    Mr. Schenkel. That is correct, sir.
    Mr. Green. If you receive this increase, will you have to 
reassign any employees?
    Mr. Schenkel. We will have to reassign employees based on 
skills sets and geographic distribution. Yes, sir.
    Mr. Green. And if you do not receive the increase, what 
will be the circumstance?
    Mr. Schenkel. We will have to determine other ways to 
accomplish that same distribution.
    Mr. Green. We live in a world, Mr. Schenkel, where it is 
not enough for things to be right, they just also look right. 
While what is occurring may be right, my suspicion is that it 
doesn't look right to a good number of persons in the public. 
It seems to some, I suspect, that we are privatizing the FPS; 
that we are outsourcing responsibilities, duties and functions 
that should be maintained by a licensed peace officer.
    This causes a great degree of consternation. It puts you in 
a tough position because you are right now speaking for the 
executive branch of the government. You literally are the 
president's voice at this hearing. So in understanding that you 
are speaking for the President of the United States--and I know 
you don't like to necessarily do this, but you are his voice 
here today--are you saying to the American public that there is 
no shortfall in your department?
    Mr. Schenkel. No shortfall in regards to--
    Mr. Green. To your budget needs.
    Mr. Schenkel. We will remain solvent in 2007. We anticipate 
being solvent for 2008.
    Mr. Green. Are you saying that you do not need additional 
FPS officers?
    Mr. Schenkel. We have determined that we can accomplish our 
projected mission of securing federal facilities and leased 
facilities with the 950 number that we explained.
    Mr. Green. So your answer is, you do not need additional 
FPS officers to meet your mission requirements?
    Mr. Schenkel. At this point, we have the 950 to effect--
    Mr. Green. Mr. Schenkel, let me suggest this, and I am not 
trying to play ``gotcha,'' but sometimes when people finish, I 
don't know whether they have said yes or no. So I am going to 
insist on a yes or no answer.
    Are you indicating to the American public as a 
representative of the executive branch, understanding that we 
live in a world where there are some great concerns that are 
going to have to be addressed, are you saying that you have 
enough officers to do your job?
    Mr. Schenkel. In support of the President's budget, I can 
support the mission of the Federal Protective Service.
    Mr. Green. We don't want you to support the budget. We want 
you to protect people. Now, to protect the American people, who 
are frequenting the facilities where our forces are deployed, 
do you have enough FPS officers to do your job?
    Mr. Schenkel. Yes.
    Mr. Green. The FPS officers can arrest people, the licensed 
officers, can arrest people based on probable cause. They can 
do so without a warrant. The typical citizen to perfect an 
arrest has to see the offense occur in his or her presence. Do 
you agree?
    Mr. Schenkel. In most cases, yes, sir.
    Mr. Green. Yes, sir. That is the way it is in most states 
in the United States.
    Are you saying that you, sir, are satisfied that the 
contract officers are in a position such that they can protect 
the American people in these various facilities without the 
assistance of an FPS officer on-site?
    Mr. Schenkel. They can deter and they can prevent, but they 
will require a sworn officer, whether it be Federal Protective 
Service or local law enforcement.
    Mr. Green. But you do agree that at every station, you do 
not necessarily have an FPS officer. Correct?
    Mr. Schenkel. That is correct, sir.
    Mr. Green. Are you saying that at the stations where you do 
not have an FPS officer, you, speaking as a representative of 
the executive branch, are satisfied that the contract officers 
will satisfy the needs of protecting the persons who are 
entering and exiting the facilities?
    Mr. Schenkel. I will say they will prevent and deter and be 
an effective means of preventing and in some cases responding 
to immediate situations. It will still require the services of 
a sworn law enforcement officer?
    Mr. Green. Then the question becomes--and this will be my 
last question, Mr. Chairman, thank you for the time--then are 
you not comfortable? Let me rephrase it. Wouldn't you think, 
then, that you need an FPS officer on-site to perfect the 
necessary security needs, since they can only have limited 
authority when it comes to detention of persons?
    Mr. Schenkel. No, I do not believe we need a licensed or 
sworn law enforcement at every single facility.
    Mr. Green. All right.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Mr. Schenkel, I will allow you to think 
about that answer that you just gave, because I think there are 
some real concerns that some of us would have that we would not 
have sworn law enforcement officers at our facilities. These 
are different times. Some of us are real concerned that 
outsourcing security to people who don't have arrest power is 
not in our best interest. And so we are looking at this issue 
very seriously. The public will demand no less than the 
absolute best.
    I think what I have heard so far is that sworn law 
enforcement people with full arrest power provide the best 
security, not contract security without arrest power. I think 
the general public in most instances cannot tell the difference 
when they go in a building. It is just at hearings like what we 
have here today that highlight the issue. I think we have to be 
very, very cautious on that.
    I now yield 5 minutes to the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair.
    Mr. Schenkel, I am going to ask you just a couple of 
parochial questions first. I represent suburbs of Denver, 
Colorado. There is a mega-center for FPS employees and 
contractors at the Federal Center in Lakewood, Colorado. What, 
if you know, are the intentions of the your department for that 
mega-center?
    Mr. Schenkel. There will be no changes there because that 
is an exclusive jurisdictional site.
    Mr. Perlmutter. That is good news. I am not going to yield 
back yet, though, Mr. Chairman, even though he has answered my 
parochial question. My next question, though, really does come 
back to some of the comments you made in your prepared text. I 
missed your opening statement, and I apologize.
    There is within your paper a statement, establishing sound 
financial management. And you said, to establish it these 
include a streamlining of the mega-center function to reduce 
unnecessary administrative support costs. What do you mean by 
that?
    Mr. Schenkel. At one point, we had contractors supporting 
the transcription or transcribing oral testimony, as opposed to 
officers filling out their own reports. We thought that was an 
unnecessary requirement. We expect an officer to be able to 
write his or her own report in the proper format and language.
    Mr. Perlmutter. And this question applied to both of you, 
Mr. Taylor and Mr. Schenkel. We talk about an unnecessary 
administrative support cost, but as I understand it, one of the 
problems that has occurred, and the reason that come under ICE, 
is that you needed additional administrative support types of 
departments or assistance or something. What is it that you 
lost when you went from GSA and now you are under ICE, that 
doesn't allow the FPS to really manage its own affairs?
    I will start with Mr. Taylor. Does my question make sense?
    Mr. Taylor. Yes. There were issues even at GSA. There were 
a number of reports by the GSA inspector general, and GAO 
released, that indicated some problems with overseeing contract 
guards. So it is not a new issue. In addition, what GAO found 
was that GSA was subsidizing the FPS. When FPS transitioned to 
DHS, that subsidy was not included in the transition. What GSA 
literally was doing was taking money from the federal building 
funds and using it to support the rent and the costs for the 
headquarters staff for FPS. That was not included in the base 
rate at the time.
    So when those funds were transferred to DHS, the cost of 
actually running the headquarters function for FPS, the rent 
and everything, all the administrative costs, did not come. And 
so DHS started behind the eight-ball when they brought FPS 
over. In addition, when they came over, FPS was converted to 
ICE's financial system, and it did so in a way that they were 
overwhelmed. They had 25,000 vouchers they had to pay for 
contract guard services, and they weren't used to anywhere near 
that kind of volume in their systems. And so their procedures 
and their systems were just overwhelmed and they got behind, 
and that is why 88 percent were paid after more than 30 days 
late.
    Mr. Perlmutter. Do you have anything to add to that?
    Mr. Schenkel. I am sorry, sir?
    Mr. Perlmutter. Do you have anything to add to what he just 
said?
    Mr. Schenkel. Only basically to echo what he said. When we 
came under ICE, there is no lie. We had some very difficult 
transition problems, especially in support functions and 
acquisitions. But since we have come under ICE after struggling 
for several years, I think we have them under control and we 
are well on our way to being much more effective.
    Mr. Perlmutter. Does the 39 cents to 57 cents a square foot 
cover that lost support cost or the subsidy that the GSA was 
giving to the FPS? Is that what that is intended to do?
    Mr. Schenkel. That is partial, yes, sir.
    Mr. Perlmutter. I can't remember the number. It was like 
$97 million or $100 million. Is that what that rent increase or 
that fee increase amounts to? What is your shortfall?
    Mr. Schenkel. We don't have a shortfall this year, sir.
    Mr. Perlmutter. Okay, so I am going to go back to Mr. 
Green's questions. If you don't go to 57 cents, what do you 
have to do? I see words like ``realignment'' and ``leverage'' 
and ``refocus.'' I am a bankruptcy lawyer. That is what I did 
for a long time. Those are words that you see in bankruptcy 
plans. I don't want to see that in the FPS. Okay? Those are 
great words, meaning you are laying off; you are reassigning; 
you are sending to different departments who may have a bigger 
budget.
    If you don't go from 39 cents to 57 cents, what are you 
going to do?
    Mr. Schenkel. We are going to have a struggle, sir.
    Mr. Perlmutter. No further questions. Thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Rhode Island, Mr. 
Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for being here.
    I want to echo the concerns of the chairman with respect to 
this issue of contracting and not having a sworn law 
enforcement officer on-site. I would have been more comforted 
if you told me that you would have a sworn law enforcement 
officer on-site overseeing the contract employees that you have 
on-site, but I am not comfortable at all with the level of 
contracting out of the FPS services that you have testified to 
today. I just want to be on record as saying that, and echo the 
concerns that the chairman has raised.
    I had the opportunity to go to the Federal Protection 
Service's headquarters in Boston during the Democratic National 
Convention. I have to say I was very impressed. They did an 
outstanding job in terms of what I saw with my own eyes, and 
their capabilities to protect and to be involved in security 
operations.
    Let me just say, and I apologize if I will ask questions 
that have already been raised. I apologize for coming in late, 
but the Federal Protective Service particularly has 
historically played a broad role in terms of securing our 
nation's federal buildings, yet recently their funding I 
believe has been neglected, which could ultimately hinder the 
core mission of FPS.
    I am particularly concerned that the administration's 
fiscal year 2008 budget lacks critical funding at this key 
agency. In fact, if left unchanged, FPS would need to cut 
nearly 300 FPS agents, including 259 police officers, 31 K-9 
inspectors, and 42 special agents.
    Mr. Schenkel, you have already testified, and I believe I 
am correct in understanding that you said that these cuts were 
not based solely on budgetary constraints, but were based on 
risk. Am I correct in understanding that?
    Mr. Schenkel. That is correct.
    Mr. Langevin. Will these positions be cut from federal 
buildings with lower risk, such as level one facilities? Or 
buildings with higher risks, such as level four facilities?
    Mr. Schenkel. Sir, to clarify some of the things that you 
mentioned, a uniformed federal police officer inspector is one 
and the same. An inspector is a federal police officer. He or 
she is uniformed and is on-site. We have some ideas on some 
strategies to perhaps place them in most level four and level 
three buildings. The frequency and attention paid to the level 
three and level four buildings in conjunction with some of the 
other DHS initiatives is where we are going to focus our 
efforts.
    The effort is to use what available forces we have in the 
moist effective manner. That is the effort of what we are 
trying to accomplish here. That individual does provide 
oversight to the contract security guards on-site.
    Mr. Langevin. On-site?
    Mr. Schenkel. Yes.
    Mr. Langevin. Thank you.
    So are you through with your answer with respect to where 
the positions would be cut from level one or level four 
facilities?
    Mr. Schenkel. I am sorry, sir. I couldn't hear you.
    Mr. Langevin. I said, the cuts, are you finished with your 
answer with respect to these positions that would be cut from 
federal buildings with lower risks? Or would they be done at 
level four facilities?
    Mr. Schenkel. Our intention and my plan of action, if you 
will, is that there will be such a frequency at the level three 
and level four buildings that our inspectors will be the 
visible presence that your building security committees will 
have face-to-face contact with, if not on a daily basis, 
certainly on a very frequent basis. In the level one and level 
two facilities, let's say it is a warehouse in a rural area, 
the frequency will be less, but there will still be attention 
paid to all facilities.
    Mr. Langevin. Thank you.
    Mr. Taylor, let me turn to you. I am extremely dismayed by 
what has been happening with respect to FPS. Mr. Taylor, you 
stated that from October 1, 2004 to November 21, 2005, FPS paid 
only 12 percent of their invoices on time. In your testimony, 
you also stated that FPS has paid over $1.2 million in interest 
to privately owned companies contracted by FPS due to these 
late payments.
    My question is, how much would you say FPS still owes in 
delinquent payments right now? And do you believe that FPS has 
improved at all with respect to paying their invoices on time? 
And finally, lastly, in your opinion--and I think you may have 
already addressed this again, but I want to ask it again for my 
understanding--can FPS be solvent by fiscal year 2008, as Mr. 
Schenkel has claimed in his testimony?
    Mr. Taylor. First, sir, the first part of your question, 
the issues that were in our report that was issued last 
October. The FPS did provide corrective action plans for the 
majority of the findings and recommendations. I think Mr. 
Schenkel mentioned earlier that down from a low of 12 percent 
that we reported, that he is over 99 percent payments on time 
currently. I can't verify that for you, but that is what Mr. 
Schenkel is saying is going on.
    So we were satisfied with the corrective action plan. We 
thought it met our recommendations, so we think they were doing 
better, and we keep hearing reports from them that they are, 
and we will be looking at it. So I think from that standpoint, 
things have gotten better.
    Overall, can they do it by 2008? Can they make all the 
corrective actions by 2008? We still have a couple of open 
items with FPS in terms of internal controls over their 
processes, and in terms of going back and looking at some of 
the older vouchers, which are not really relevant to 2008.
    So I think not only can they, but I think they have to, 
because they are going to be reducing the size of the force 
that is going to be there to oversee these contractors. So in 
order for the plan that FPS is putting forward to be 
successful, I think it is absolutely critical that they have 
the procedures and the mechanisms in place to oversee these 
contractors.
    We already have 15,000 contract guards and we have a fixed 
number of people to oversee those contracts. As the number of 
people that are involved in the core functions of FPS are 
reduced, I think it is even more incumbent on FPS to make sure 
they have trained, qualified people overseeing the contractors. 
So I think it is absolutely necessary.
    Mr. Langevin. Thank you. I will just finish up by saying 
that I am a supporter of FPS and appreciate the work they do in 
protecting our federal facilities. I want to make sure that 
they have the resources they need to do their job.
    I hope that with respect to the kind of cuts we are talking 
about that we are not being penny wise and pound foolish. I 
will pledge my support to working with the chairman to continue 
to follow this issue to make sure that FPS is properly staffed 
and supported.
    With that, thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentlelady from Houston, 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much.
    I know that my colleagues have asked many potent and 
instructive questions. Let me thank the witnesses for their 
testimony. I was attending a funeral this morning, and I thank 
you, Mr. Chairman, for your indulgence.
    I really have one focus, and I will ask one question and 
submit others to the record in writing. But I know that there 
is, one, a theme that has been used by the Federal Protective 
Service, ``realignment.'' And might I join my colleague, 
Congressman Langevin, in saying that you have my enthusiastic 
support for the Federal Protective Service because not only do 
I go in and out of federal buildings, but my office in Houston 
is in one of the federal buildings.
    I have watched contractor after contractor be changed over 
for the security that is being provided. I have also seen full-
time employees of the Federal Protective Service doing an 
enormous job. I have seen you move people around. You get to 
know one person for a building or region, and then all of a 
sudden, the person has disappeared, transferred somewhere or 
cut.
    So my concern is whether or not we are in fact meeting the 
test of security of these buildings and our hard-working 
federal employees, and hard-working American citizens who come 
and go inside our federal buildings. I am aware that the 
committee had asked you not to reduce its staff--I am sure 
someone has asked this?until after the GAO study.
    What I want to hear from you, Mr. Taylor, are we secure 
with this rotating contractors so-called ``realignment,'' when 
really it is cutting jobs? Can we feel that we have really 
done--you know, what was the story after 9/11--did we do all 
that we could do, beside the question of good intelligence? Are 
we doing all we can do, with the fractures that are in the 
system right now, to secure our buildings and the people who go 
in and out?

 Prepared Statement the Honorable Sheila Jackson Lee, a Representative 
                  in Congress From the State of Texas

    Thank you, Mr. Chairman, for convening this hearing on the effects 
of reported budget and staff cuts on security and agency integrity. I 
would also like to thank the Ranking Member, Mr. King, and to welcome 
our four distinguished witnesses: the Honorable James L. Taylor, Deputy 
Inspector General, from the Department of Homeland Security; Mr. Gary 
Schenkel, Director of the Federal Protective Service, from the 
Department of Homeland Security; Mr. David L. Wright, President, 
American Federation of Government Employees Local 918, FPS Union; and 
Mr. Joseph Ricci, Executive Director of the National Association of 
Security Companies. I look forward to hearing your insights on this 
important issue.
    Since its establishment in 1971, the Federal Protective Service, or 
FPS, has fulfilled a crucial role as the uniformed protection force for 
government occupied facilities. In 2002, the Homeland Security Act 
moved FPS to the Department of Homeland Security, where it was placed 
in the Immigration and Customs Enforcement Directorate.
    FPS relies largely on contract guards; these services represent the 
single largest item in its operating budget. Despite the sizeable 
amounts of funds involved (an estimated $487 million in FY2006), FPS 
does not consistently deploy qualified and certified contract guards. 
The FPS has established a pattern of failing to pay contract guard 
service invoices promptly, and has accrued $1.2 million in interest on 
late payments.
    In order to avoid paying these penalties, the Immigration and 
Customs Enforcement Directorate instituted a process of default 
payments. Using this system, from October 1, 2004 to November 21, 2005, 
FPS paid $121 million in contractor invoices without necessary 
supporting documentation. This was done against the negative 
recommendation of the FPS Director of Financial Management, and it is 
not currently clear whether these payments have been fully reconciled. 
It is apparent, however, that serious financial mismanagement took 
place, and that it has cost the Department financially.
    In addition to the problems surrounding the use of contract guards, 
external observers have noted an expected budget shortfall of $80 
million this year, despite FPS denials. This shortfall has been 
attributed to an inadequate transition to the management system used by 
the Immigration and Customs Enforcement Directorate, as well as the 
refusal of the Department of Homeland Security to absorb FPS support 
costs.
    Despite denials of a budget shortfall, internal FPS documents 
indicate plans to address funding deficiencies by cutting over 300 
jobs. These eliminated positions would include 259 police officers, 31 
K-9 inspectors, and 42 special agents, as well as 43 support positions, 
including financial, human resources, and logistics officers. The 
Directorate has so far refused to call this what it is: a rash of job 
cuts, instead using the euphemism of ``re-alignment.'' And although it 
has said that those removed from these 300 jobs will not lose 
employment, it has yet to indicate how and where they will be re-
employed. Questions about the method of job transition and the 
availability of training for new positions remain unanswered. The 
Department has admitted, however, to plans to cut the total FPS 
workforce from 1180 to 950.
    With the reduction of the FPS police force, Department officials 
have indicated that private contractors will play an increasing role in 
the vital task of securing federal facilities. This is cause for 
significant concern, as FPS has already been criticized for problems 
with contract monitoring. According to the Office of the Inspector 
General, FPS ``does not have the systems to track inspection reports 
and contract deduction status.'' The case of former FPS Inspector 
Michael Czecholiniski, who pled guilty in January 2007 to accepting 
bribes from those he was responsible for evaluating, raises further 
questions about the oversight of this program.
    It is clear that there are serious problems within the system we 
are entrusting to safeguard our nation's government facilities. I look 
forward to the testimony and insight offered by our witnesses, and I 
hope that we can engage in an informative debate with regards to the 
future direction of this important program.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Mr. Taylor. Yes, ma'am. What we found in our review, and we 
focused mainly on the national capital region, but there have 
been other studies that looked across the board at FPS, was 
that at the time that we did the review, there were a lot of 
oversight problems, and there were issues with the internal 
controls and with the oversight and with maintaining proper 
management of the contractor activities.
    So that would be an extreme weakness, when you find 30 
percent of the contract guards that we sampled on duty who 
didn't meet the basic qualifications and the basic requirements 
that are stated in the contract. That is a problem.
    Going forward, I cannot tell you if having more contract 
guards is necessarily a bad thing or a good thing. I go back to 
the chair's opening remarks. But what I can tell you is that if 
those issues are not corrected, if you can't manage the guard 
force properly and you can't make sure that they are qualified, 
and you can't stay on top of the contracting function, then it 
does become even more problematic.
    Ms. Jackson Lee. Mr. Schenkel, I do want to make note of 
the fact that those that I have seen in Houston, in the Mickey 
Leland Building, are hard-working, but you raised some valuable 
points. Are we safe, Mr. Schenkel? You are the director of the 
Federal Protective Service. We have the in-and-outs, the 
transfers, the contracts. What is going on?
    Mr. Schenkel. I think one of the things that we have to 
keep in mind as well is that, either whether it be criminal or 
terrorist, one of their methods of operation is looking for 
consistencies or constant inconsistencies in any security 
program; changing of the guard force positions and postures, et 
cetera. That is part of the security posture that enhances 
security. It doesn't detract from security.
    If that is part of what you are asking, then I think?
    Ms. Jackson Lee. No, I am not. What I am saying is that you 
have a fluid and floating management structure. Managers don't 
stay in place. They don't have enough time to train. Your 
contracting situation is erratic. So I am asking you, with this 
kind of confusion, do you feel that you can get your hands 
around securing federal buildings and the people of the United 
States?
    Mr. Schenkel. That is why we are making the effort towards 
refining the efforts of the Federal Protective Service. We came 
over without a lot of experience in mission support. We had 
extremely difficult challenges in acquisition and contracting 
and management of those contracts over the past few years under 
ICE, and then partnering with ICE and sharing some of their 
assets and support.
    We have been able to focus more on our mission, and quite 
frankly we need to focus even more on our mission. That is why 
we want to direct ourselves toward that inspector-based force 
so we can concentrate on the security mission and not be 
detracted by support functions that we did not have a handle 
on, but at this point, I think we are making great strides in 
getting a handle on those. I think our very recent record, and 
I certainly won't brag on our past record, but in our very 
recent record I think we are showing vast improvements in those 
areas.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much.
    Let me thank both of the witnesses. I think that we need to 
be hand-in-glove with this agency and the Department of 
Homeland Security going forward. I have a sense of unreadiness 
and uncomfortableness, not because they are not hard-working 
persons, but I think Mr. Schenkel has made it clear that 
getting a told of the mission, working under the context of 
homeland security.
    I think you have done the right thing with this hearing and 
I hope that we can go forward with giving some assistance and 
oversight. I thank the distinguished gentleman, and I yield 
back.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentleman from Pennsylvania, 
Mr. Dent.
    Mr. Dent. Thank you, Chairman Thompson. Good morning.
    Mr. Schenkel, what is involved in a security assessment at 
a federal facility? From your testimony, I see that there are 
8,900 federal facilities, but that you only do an average of 
about 2,500 security assessments per year. So each facility 
gets an assessment about every 3 1/2 years or thereabouts. Is 
this enough to ensure that the security standards are being 
met? What are the types of monitoring or checks that are done?
    Mr. Schenkel. I am sorry. I didn't hear the last part of 
your question, sir.
    Mr. Dent. What are the types of monitoring or checks that 
you are doing? I went through the whole litany here. So 
basically, if you could just start off with what is involved in 
the security assessment of a federal facility?
    Mr. Schenkel. The building itself is assessed for its 
location, the surrounding area, the priority of the operation 
that it contains. For instance, a warehouse would obviously 
take a far different security posture than a federal office 
building. All of the surrounding area, the potential threats, 
the history--everything is taken into consideration when a 
building is assessed.
    Mr. Dent. Also, according to your testimony, last year 
there were more than 4,000 individuals arrested for committing 
crimes on federal property. What are the most common crimes 
that are committed and who makes those arrests?
    Mr. Schenkel. Most of the arrests previously have been 
bench warrant arrests. Individuals have been discovered that 
already had a warrant out on them, and primarily local law 
enforcement who shares jurisdiction at most of our facilities 
made the arrests.
    Mr. Dent. Does local law enforcement, do they always 
respond? Or for what crimes will local law enforcement respond 
and not others?
    Mr. Schenkel. They will respond to any crime, based on the 
priority. The constituents in the buildings, the leased 
facilities, which three-quarters of ours are, three-quarters of 
the GSA facilities are leased facilities in the public arena, 
if you will. Local law enforcement has shared primary 
jurisdiction.
    Mr. Dent. Thank you. Do security measures differ between 
federal facilities when the threat level increases?
    Mr. Schenkel. The security posture changes. Depending on 
available intelligence and information, whether or not the 
facility actually reconfigures, in other words, do we add 
additional security measures like additional metal detectors, 
things like that, is dependent on the situation.
    Mr. Dent. Thank you.
    I have no further questions. I yield back.
    Ms. Norton. [Presiding.] Thank you.
    Chairman Thompson is absent for a moment and has asked me 
to sit in the chair. I just have one more question before we 
call the witnesses up.
    You testified, Mr. Taylor, that part of the issue with 
funding once the transition was made to DHS is that essentially 
in order to fund the FPS, GSA had to rely not only on the per-
square-foot measurement, but had to reach into the building 
fund, which of course is a revolving fund necessary simply to 
rehabilitate and to build additional buildings, in order simply 
to keep FPS whole.
    Now, I understand that overhead, the costs paid to DHS to 
administer FPS, is twice what it was at the GSA. Should that 
not be enough to make up for whatever are the issues that are 
requiring this terrific downsizing and use of security guards?
    Mr. Taylor. We haven't done any work, ma'am, so I really 
can't specifically answer what they are getting for their 
dollar now versus what GSA gave them. I know that when they 
came over, the shortfall was about $47 million, I believe, and 
that was what initiated a lot of the initial funding concerns 
with FPS and created some of the problems and required the 
reprogramming that occurred in 2006.
    Ms. Norton. So this is not only an efficiency. The 
downsizing, the shifts that are made are not only a matter of 
efficiency and doing the job better, but it is a question of 
trying to make up for lost funds or funds that are not there. 
Isn't that so?
    Mr. Taylor. Those funds had to come from somewhere, ma'am.
    Ms. Norton. And they have not come in the DHS budget.
    Mr. Taylor. No, ma'am.
    Ms. Norton. Thank you very much. I appreciate these two 
witnesses for testifying.
    I would like to call the next two witnesses: David Wright, 
president of the American Federation of Government Employees, 
Local 918; and Mr. Joseph Ricci, the National Association of 
Security Companies.
    Mr. Wright started his career in St. Louis and served as a 
patrolman, and currently serves as president of this local, and 
executive vice president of ICE Council 118.
    The second witness, Mr. Ricci, is responsible for 
operational aspects of the National Association of Security 
Companies. This is the advocacy organization for contract 
security services.
    I am pleased to welcome you both here and to hear your 
testimony at this time. Without objection, your full statements 
will be entered into the record, and we ask that you testify 
for approximately 5 minutes.

STATEMENT OF DAVID L. WRIGHT, PRESIDENT, AMERICAN FEDERATION OF 
           GOVERNMENT EMPLOYEES, LOCAL 918, FPS UNION

    Mr. Wright. Okay. Thank you, Madam Chair, members of the 
committee.
    On behalf of the Federal Protective Service police 
officers, inspectors, special agents and support personnel, I 
am David Wright, president of Local 918 of the National Federal 
Protective Services Union. I am also a veteran FPS police 
officer and inspector of 21 years.
    FPS is responsible for policing and ensuring the safe 
environment for federal agencies to serve the public and 
protect 1.1 million dedicated civil servants at over 8,800 
total properties in over 2,100 American communities. Madam 
Chair, I am testifying before you shortly after the twelfth 
anniversary of the destruction of the Alfred P. Murrah Federal 
Building in Oklahoma City, defending the concept that federal 
police officers on proactive patrol are the most viable 
frontline protection against terrorism and crime in our federal 
facilities.
    The 2008 budget proposal increases the risk of criminal and 
terrorist attack on federal employees, facilities and members 
of the public by reducing FPS to less field personnel than at 
the time of the Oklahoma City bombing.
    Other federal agencies provide protection for some 
government facilities, notably the Capitol Police that have 
over 1,500 officers to protect congressional facilities in the 
Washington, D.C. area. The Secret Service Uniformed Division 
has more than 1,300 officers to protect the White House complex 
and selected facilities. The Veterans Administration has over 
2,400 officers to protect 154 medical centers nationwide. All 
these agencies use extensive proactive patrol and 24-hour 
service as integral parts of their effective strategy to detect 
and deter terrorist and criminal activity.
    The administration proposal claims to be proactive by 
increasing the necessary performance monitoring of the 15,000 
contract security guards that FPS uses to help secure 
facilities. The proposal also begins to allocate resources for 
security standards compliance monitoring, which should have 
started in 1995, not 2008. This is their so-called 
``proactive'' approach.
    Citing agency documents which have since been denied as to 
their relativity to the agency, the impacts of the reduction of 
FPS to 900 FTE were recently described by the chairman of the 
House Transportation and Infrastructure Committee as including 
no proactive patrol to detect and deter attack planning, 
suspicious or criminal activity; no response to calls for 
police service at federal facilities or to investigate crimes 
where FPS will no longer have a presence; and no FPS presence 
in approximately 50 current cities.
    Participation in the FBI Joint Terrorism Task Force is 
reduced to 12 special agents from 24. Special agents available 
to investigate serious crime are reduced to 14 from 58. There 
is no night or weekend FPS police response or service anywhere. 
The largest reductions are in New York City and Washington, 
D.C. are due to proactive activity elimination.
    This proposed 950-employee model is driven by deficits, not 
a risk analysis by law enforcement or security professionals. A 
proper workload allocation study completed in 2006 by a team of 
FPS professionals considered threats and varying security 
requirements of all facilities, ultimately determining that a 
substantially higher requirement was necessary to protect our 
federal facilities.
    ICE is moving aggressively to implement its plan, despite 
this committee's amendment to the DHS authorization bill that 
would effectively put a halt to these downsizing efforts. A 
previous GAO audit found that when FPS was under GSA, the 
operating costs above the fees collected was approximately $139 
million per year. None of this funding transferred to DHS and 
that problem has never been remedied.
    Over the past 3 years, the actual amount spent and service 
provided to secure federal workers and facilities has declined. 
Risks to employees and visitors increase each day as more of 
our FPS law enforcement officers leave what they see is a 
sinking ship. Congress needs to intervene and stop this effort.
    In our view, the only interim way to accomplish this is to 
ask the Appropriations Committee for approximately $38 million 
in additional funding for fiscal year 2008. It is our 
understanding that the House Appropriations markup is this 
coming Thursday. We are seeking this committee's support in 
this matter as an interim step until we fix the underlying 
problems of FPS that I have outlined in my written testimony.
    I am looking forward to clarifying some of the issues that 
were spoken to in previous testimony, specifically why we are 
not in a deficit at this point and the difference between 
police officers, inspectors and contract security guards.
    Thank you.
    [The statement of Mr. Wright follows:]

                 Prepared Statement of David L. Wright

    First I would like to thank you for the opportunity to be present 
in my capacity as President of AFGE Local 918, the National Federal 
Protective Service Union. I am the delegated representative of 
approximately 1000 FPS employees to include federal law enforcement 
officers and support staff.
    FPS is responsible for policing, securing and ensuring a safe 
environment for Federal Agencies to serve the public and protect 1.1 
million dedicated civil servants at over 8800 total properties in 2100 
American communities. These buildings often house sensitive, high-level 
government offices and federal court buildings, numerous Agency 
Headquarters such as FBI, EPA and USDA and public access facilities 
such as Social Security and Immigration offices.
    Mr. Chairman, one of the stated matters of this Committee's 
interest was a reference to bribery--or at least one instance of 
alleged bribery--at the Federal Protective Service.
    One allegation of bribery, public corruption or compromise of 
public office is ten too many. The Florida case specifically cited by 
this Committee casts aspersions on a person, a work unit, a region and 
an entire organization. I represent the workers of that organization 
and I would like to state--on their behalf--that the men and women of 
the Federal Protective Service are amongst the most conscientious, 
honest and capable civil servants in this government. I wish to offer 
some brief insight into the Florida case that does not come through--in 
any way--in the media coverage or the Justice Department's press 
release concerning the matter.
    The facts--as reported in those media releases--tend to conflict 
with, or do not completely embrace, our understanding of the actual 
events of the case. More importantly, the portrayal of the subject 
Inspector is a disproportionately dark characterization of an officer 
that we know to be a noble man who made a serious ethical mistake in 
judgment that was completely out of his historically demonstrated 
character. We cannot color his act as anything less than wrongful, but 
we can proclaim it as a serious, yet isolated, conduct anomaly within 
an otherwise honorable and dedicated career. We cannot go into any 
details to evidence our position, as the man's criminal sentencing lies 
yet ahead.
    My AFGE Council FPS associate has just spoken with this employee. 
And while that former employee cannot speak to you or his FPS peers or 
to the American taxpayer, he wanted you all to know how deeply 
sorrowful he is for letting us all--and himself--down. He wanted to 
express his sorrow and regret for making such a mistake. He prays that 
those who know him will spread the word that he is not the evil, greedy 
villain described in the written accounts. He asks for forgiveness and 
begs to be remembered not solely by this one series of errant actions, 
but--in balance--also by the sum of his career contributions and 
service to the public good and safety. We are all entitled to one 
mistake. And for his he has already paid a disproportionately high 
price.
    If this Committee knows nothing more about this man than a press 
release and a private civil service newsletter article, then, in all 
respect, you do not know this man. And while one apple can figuratively 
taint an entire barrel, this incident--in reality--actually portrays a 
single apple bruised by its mortal frailties, not one that is decayed 
beyond redemption.
    The Committee chose to include bribery at FPS as one of its agenda 
items. I can say that in my 21 years of service here, that I have not 
seen, nor am I aware of, any instances or practices of bribery. While 
your concern over this subject is noted and appreciated, from the 
perspective of the union, historical incidence of bribery at FPS is 
virtually non-existent.
    To move on to the situation that I was called here today for--Mr. 
Chairman, I am testifying before you shortly after the 12th anniversary 
of the destruction of the Alfred P. Murrah Federal Building in Oklahoma 
City. I find it disturbing that I am forced to defend the concept that 
Federal Police Officers on patrol and Special Agents gathering 
intelligence are the most viable frontline protection for Federal 
facilities in these days of international terrorism.
    After the 1995 terrorist bombing, GSA and Congress determined that 
FPS required 1480 field personnel, an increase from approximately 970 
at the time of the attack. This year, DHS reduced FPS to below 1200 
then proposed 950 for 2008. The 2008 budget proposal increases the risk 
of criminal and terrorist attack on Federal employees, facilities and 
members of the public by reducing FPS to less field personnel than at 
the time of the Oklahoma City Bombing.
    I know that I need not remind anyone in this room, nor should I 
have to remind officials at the Department of Homeland Security that 
the three most infamous terrorist attacks on U.S. soil in our history 
occurred either at federal buildings or in buildings which housed 
federal agencies: the Alfred P. Murrah Federal Building in Oklahoma 
City on April 19, 1995 and the World Trade Center on February 26, 1993 
and again on September 11, 2001. Perhaps it is because of my long 
service as an FPS Officer, but it is extremely difficult for me to 
imagine a more likely symbolic/strategic target for terrorists than a 
building housing U.S. government operations and officials.
    I've been an employee of FPS since July 1986. From the moment I 
entered service, I noticed the somewhat dysfunctional nature of this 
Agency. I promoted from Police Officer to Corporal and eventually to 
Sergeant in Management ranks in 1993. In 1994, FPS employees were 
preparing for a dismantlement of the Agency and were given several 
employee ``options''--even as we were providing round the clock 
protection at the federal trials of the 1993 WTC bombing. On April 19, 
1995, while on normal proactive patrol in Kansas City, Missouri, I 
heard the news that shocked the nation. A terrorist bombing in the 
heartland destroyed the Alfred P. Murrah Federal Building in Oklahoma 
City, Oklahoma--killing 168 federal employees, visitors and children. 
At that point in time, Kansas City had approximately 20 full time FPS 
police officers. Reports surfaced that Tim McVeigh and Terry Nichols 
had been in Kansas City and perhaps ``casing'' our Federal facilities. 
There was one Federal Protective Service armed physical security 
specialist stationed in Oklahoma City.
    That day convinced me that changes were needed in the way that the 
Federal Protective Service operated. Immediately, the Federal 
Protective Service was ``off the chopping block'' due to Congressional 
intervention. The June 1995 Department of Justice Vulnerability 
Assessment of Federal Facilities was published and the incentive--
illuminated by Congressional oversight--was high to ensure measures 
were being taken to protect the federal infrastructure, the employees 
who worked there and the public that visited.
    Crucial hiring ensued in 1996 and 1997 bringing the numbers of 
Police Officers to Agency mandated 730 with a focus on hiring 
experienced police officers. The intent was to get away from the 
``security guard'' image. Suffice to say that the 1000 police officers 
mandated by Congress by Public Law 100-440 was ignored. Through the 
late 90's, FPS provided law enforcement and security functions at the 
trials of the Oklahoma City bombers and continued at ongoing terrorist 
trials in New York City. Nevertheless the FPS image could never 
overcome the years of damage caused by neglect of our force.
    Then came the horrible attacks on 9/11. Members of New York FPS 
participated in the immediate emergency response to the attack. Their 
dedication to duty and country resulted in several FPS officers being 
injured to include one officer that spent months in rehabilitation 
before being able to come back to the job. On September 21, 2001, FPS 
Inspector Ron Sheffield was murdered at the McNamara Federal Building 
in Detroit, Michigan during a response to a deranged individual--as a 
direct result of the heightened security alert in the days after 9/11.
    Under the leadership of FPS Commissioner Wendell Shingler, members 
of FPS were proud as we moved over to the newly formed Department of 
Homeland Security in March 2003, although we were confused by our 
merger into ICE, along with certain elements of U.S. Customs Service 
and U.S. Immigration and Naturalization Service. Even with the neglect 
and animosity from DHS/ICE, the ensuing years showed that FPS was a 
viable force--with commended participation in numerous incidents of 
national significance--before ``incidents of national significance'' 
became a phrase in the National Incident Command System. Tactics, 
training and equipment were upgraded to the level necessary for 
response to a terrorist threat at any of the 8800 federal facilities in 
our jurisdiction. 100 Hazardous Materials Technicians were trained. 60 
K9 Explosive Detections teams were trained and formed. Emergency 
Response Teams were formed around the nation. 16 Emergency Medical 
Technicians were trained and equipped. FPS participated in events 
ranging from protection of federal facilities during the Elian Gonzales 
incident, the 2002 Salt Lake City Winter Olympics to the 2000 and 2004 
political conventions, Savannah G8 Summit, World Bank and Seattle World 
Trade Organization meetings and Presidential Inaugurations.
    In August 2005, FPS elements--to include 200 law enforcement 
officers and associated equipment were pre-positioned and subsequently 
moved into the Gulf Coast in the immediate aftermath of Hurricane 
Katrina. FPS Officers were commissioned as Louisiana State Patrol and 
provided police services to the stricken New Orleans community 
alongside New Orleans Police Department which had few operating 
emergency vehicles. FPS was at the Superdome. FPS was at the Convention 
Center. FPS assisted in the inspection and securing of numerous 
chemical plants in Southern Louisiana. FPS participated in the rescues. 
FPS was on the teams that were recovering bodies and controlling 
traffic in the immediate aftermath until more federal help arrived. FPS 
was thanked publicly by DHS Commissioner Michael Chertoff. Ironically, 
FPS has been challenged by ICE as to its authority to respond to such 
incidents and we have once again floundered. Lost in the huge 
bureaucracy, our numbers have shrunk from the approximate 1530 
employees on board as of 3/1/03--when we entered into DHS/ICE--to 1172 
today.
    Despite the obvious need to both invest in and re-build this 
critical homeland security agency, DHS and specifically, ICE are 
proposing to completely eliminate most direct law enforcement services 
by FPS. Agency officials and documentation has confirmed to us that the 
proposed cuts in personnel and service are due to be completed by June 
30, 2007. 249 Federal Law Enforcement positions directly responsible 
for law enforcement patrol and response to federal properties are to be 
cut. 18 Police Officer positions would remain across the nation in 18 
major metropolitan areas. 42 FPS Special Agent positions responsible 
for prosecution of Federal crimes, intelligence gathering and 
dissemination will be eliminated.
    The Administration's budget submission offers this description of 
its plan for FPS: ``In 2008 the Federal Protective Service will set 
security standards and enforce the compliance of those standards to 
protect federal facilities''.
    But those few words in the budget submission belie a proposal that 
is both dangerous and foolhardy in the post 9/11 world in which we 
live. To quote directly from a portion of a PowerPoint presentation 
(Attachment 1, three pages) prepared by U.S. ICE for FPS Regional 
Directors, dated December 20, 2006 and titled: Briefing on the Federal 
Protective Service, Transition to fiscal year `08 budget, on a page 
titled ``Risk Assumed by [FPS] Transformation''; where the agency 
describes the impact of the FPS proposal:
        1. No proactive patrol to deter attack planning; and detect/
        deter suspicious and criminal activity.
        2. No response to calls for police service to protect Federal 
        employees and visitors or
        3. investigate crimes at Federal facilities in areas where FPS 
        will no longer have a presence;
        4. No FPS presence in approximately 50 current cities;
        5. Participation in the FBI Joint Terrorism Task Forces reduced 
        to 12 Special Agents from 24;
        6. Special Agents available to investigate serious crime 
        reduced to 14 from 58;
        7. No night or weekend police response or service anywhere
        8. Largest reductions in N.Y. and Washington D.C. due to 
        proactive activity elimination;?
    And the list goes on. The Administration proposal claims to be 
proactive by increasing the necessary performance monitoring of the 
15,000 contract security guards FPS uses to help secure facilities. The 
proposal also begins to allocate resources for security standards 
compliance monitoring, which should have started in 1995 not 2008. This 
is their so--called a proactive approach.
    The agency has since issued statements to employees and the Media 
denying the relevance of the above cited document, describing a rosy 
plan of reorganization or ``right--sizing'' which leaves out the above 
particular highlights. Nonetheless, these are the facts as detailed by 
the agency itself and they are shocking. The proposed 950 employee FPS 
is driven by money--not a risk analysis by law enforcement or security 
professionals.
    A proper workload allocation study was completed in 2006 by a team 
of FPS professionals with over 225 collective years of security and law 
enforcement experience and in depth knowledge of effective risk 
mitigation strategies. The study considered threats, varying security 
requirements of facilities based on their security level and location--
ultimately determining that a substantially higher requirement was 
necessary to protect our federal facilities (Attachment 2, 33 pages).
    On April 25, 2007, I received email documentation of a meeting in 
FPS Region 3 Philadelphia, between bargaining unit employees and Agency 
management personnel reveals that the plan is moving forward. This 
despite the recent GAO Audit requests by the House and Senate, numerous 
Congressional Inquiries and this Committee's 3/26/07 Amendment to the 
DHS Authorization Bill--that would require DHS to await GAO findings 
before downsizing.
    The Federal Protective Service is being starved of resources by 
DHS/ICE. The Administration has said more times than I can count, that 
we are doing all we can to protect the nation against terrorists and 
terrorism. I doubt anyone could honestly call this FPS plan ``doing all 
we can''. In fact, it is an abrogation of a critical responsibility to 
protect this nation.
    Interestingly, Mr. Chertoff has been silent on the subject of this 
proposed reorganization of FPS that will result in the elimination of 
249 police officer positions nationwide in addition to the approximate 
350 positions that have already been lost. In effect this latest 
reorganization attempt will be the virtual dismantlement of FPS as a 
viable Federal response force. The proposed reduction to 950--announced 
to the employees on 2/5/07 is a re-hash of old plans that have never 
fully panned out over the years since 1986. The plan is still deemed as 
``pre-decisional'' by the Agency in an effort to avoid discussions with 
the Union.
    Mr. Chairman, given the fact that ICE is moving aggressively to 
implement its ill-considered plan and FPS is losing experienced law 
enforcement officers on an almost daily basis, Congress needs to 
intervene and stop this effort, certainly until the GAO report on the 
agency is completed. In our view, the only way to accomplish this is to 
ask the Appropriations Committees to initiate a reprogramming request 
to DHS. We are only talking about money sufficient to take FPS through 
the end of the year, but enough to stop the attrition. Reprogramming of 
funds for fiscal year 1907 to return to the 1250 FTE level (which seems 
to be the consensus to stabilize): 80 Police Officers at $121,000 per 
year prorated at 6 months = $4,840,000.
    We would also like to recommend changes for fiscal year 08. The 
recommendations were developed from Agency proposed cuts and a 
``stabilization'' effort at 1250 FTE: 259 Police Officers at $121,000 
per year = $31,339,000; and 42 Special Agents at $150,000 per year = 
$6,300,000.
    A potential funding source for each of the above recommendations 
would be the ``shared services fee'' that ICE currently charges FPS 
approximately $52,000,000 per year--about $48,500 per employee at this 
point. These shared services include GSA rent and IT charges of 
approximately $24,000,000 that cannot be avoided.
    However, the remainder of $28,000,000 is a ``tax'' imposed by ICE 
on FPS for funding of unfair and ineffective Human Capital operations--
to include Employee and Labor Relations and Office of Professional 
Responsibility. These offices are directly responsible for the fact 
that DHS ranks last in employee morale.
    I also urge the Committee to take steps to fix the three immediate 
core problems of the Federal Protective Service that have resulted in 
this fiscal and organizational mess:
        (a.) The method by which we are funded--the current ``fee for 
        service'', ``accounts receivable''funding mechanism and 
        security charges through GSA rent is an inefficient holdover 
        from our days within GSA. Our recommendation would be 
        implementation of direct appropriations or at least a funding 
        mechanism whereby ``security charges'' from federal agency 
        ``customers'' is budgeted and collected by Office of Management 
        and Budget. Dissemination of funds would be ``transparent'' to 
        the ``customer'' Agencies.
        (b.) Our placement within Immigration and Customs Enforcement. 
        The placement of FPS within ICE was a huge mistake from the 
        inception. A small Agency like FPS had no chance with the 
        immediate turf battles that developed between Immigration and 
        Customs personnel. Our recommendation would be our inception as 
        a ``stand--alone'' federal Agency within DHS.
        (c.) Ensure that GAO conducts an extensive review of the 
        absolutely burgeoning costs of security guard contracts around 
        the nation. Implementation of Federal Civil Service GS-085 
        security guards at Security Level 3 and 4 facilities would 
        provide several benefits: security guards with federal 
        authority to intervene. At present, authority of contract 
        security guards is dependent on local and State laws and the 
        contract. Contracts can also be written that limit authority of 
        their employees to physically detain suspects.
    Equally important would be two more proposals that would ensure the 
long term viability of FPS as the premier law enforcement/security 
Agency responsible for Federal properties:
        (a.) Removal of the power of the Department to ``delegate' to 
        ``customer'' Agencies the authority to ``opt out'' of payment 
        for law enforcement and security services provided by FPS--as 
        iscurrently being pursued by the Administrative Office of the 
        Courts and U. S. Marshals Service. As thisscenario plays out, 
        decreases in funding result in fewer police officers and FPS is 
        systematically stripped of its ability to respond effectively 
        and efficiently to its ``customers''--resulting in more 
        delegations.Federal Agencies are not receiving services that 
        they are paying .37 per square foot for A proposed increase to 
        .59 per square foot is pending--and service is being decreased 
        as we speak.
        (b.) Codification of the Interagency Security Committee 
        Standards that is used by FPS to ``recommend'' physical 
        security countermeasures. At present, FPS can only make 
        ``recommendations'' which have no binding authority on Federal 
        Agencies to implement security countermeasures.
    I assure you that when these problems are fixed, FPS can institute 
true reform, and become the Agency within Department of Homeland 
Security absolutely responsible for protection of Federal facilities.
    Mr. Chairman, members of this Committee, I urge you to reject the 
ill-conceived initiative of downsizing--proposed by the Department 
because of financial mismanagement and a faulty funding mechanism that 
the Department has consistently failed to remedy. Before we decide to 
eliminate this core FPS responsibility, let us pause and take a close 
look at whether this is the direction we really want to go. Do we 
really want to reduce this agency to an essentially regulatory body 
with no real law enforcement responsibilities? Do we really want to 
rely on a few hundred inspectors to oversee and insure compliance with 
security guidelines for a vast work force of 15,000 private security 
guards?
    Any support that you, Mr. Chairman, and this Committee can provide 
would be greatly appreciated--not just by the law enforcement officers 
of FPS but by the thousands of federal employees, the visitors and the 
millions of Americans worried about where the next terrorist attack 
might take place. Thank you for your time.

Attachment 1:

               Briefing on the Federal Protective Service

                       Transition to FY 08 Budget

Prepared for FPS Regional Directors

December 20, 2006
                U.S. Immigration
                and Customs
                Enforcement
--------------------
Vision for FPS
--------------------
Vision for FPS in FY 2008
<bullet> FPS will execute the DHS mission to protect the buildings, 
grounds and property of the Federal Government as required by 40 USC 
1315.
<bullet> As the sector-specific agency for the Government Facilities 
Sector in the National Insfrastructure Protection Plan (NIPP) establish 
and set standards for the sector. Plan to monitor compliance.
<bullet> Focus only on GSA Facilities to the extent of available 
security fees paid by tenant agencies.
<bullet> Operate with the FY08 resources programmed in the President's 
budget.
<bullet> Use planning guidance with a risk-based model to leverage and 
target limited resources.
<bullet> The service delivery platform will generally be the inspector 
position, which provides the full range of services.
<bullet> Reimbursable services (e.g., support to FEMA ins responding to 
natural disasters) will be maintained on set work authorizations or 
agreements.

FY 08 FPS Activities
--------------------
FPS' Projected Lines of Business and Activities
Basic Security (standard fee from all tenant agencies)
        <bullet> Respond to reports of crime and calls for service to 
        protect Federal employees, visitors and facilities in 
        metropolitan clusters with high risk facilities and 
        concentrations of Federal employees.
        <bullet> Monitor alarms, receive calls for emergency service 
        and reports of suspicious activity, and dispatch appropriate 
        response.
        <bullet> Investigate crime to determine security 
        vulnerabilities and identify suspects.
        <bullet> Scheduled and pre-construction/pre-lease assessment of 
        threats/risk to facilities and identification of 
        countermeasures to reduce risk.
        <bullet> Implementation planning for specific countermeasures 
        to reduce risk.
        <bullet> Validate risks, verify compliance and risk reduction 
        measure (e.g. guard posts) effectiveness.
        <bullet> Assist facilities and agencies with BSC, OEP, COOP, 
        other emergency plans and security training.

Building Security (reimbursable services charged to agencies)
        <bullet> Procure, administer and monitor security guard 
        services.
        <bullet> Procure, and maintain security systems (e.g. CCTV, 
        Access Control, X-Ray etc.)
        <bullet> Coordinate/Monitor procurement and installation of 
        permanent countermeasures with GSA. (e.g. barriers, window 
        protection: etc.)

Specialized services and support to other agencies (mixed reimbursable/
standard fee)
        <bullet> Determine suitability of contractors working in 
        Federal owned and leased space
        <bullet> Law enforcement, investigations and security guard 
        services to agencies such as FEMA on a short-term basis (using 
        reimbursable overtime to continue basic services with all 
        incremental costs charged to assisted agency)
Organizational Structure:
Staffing
--------------------

Structure/Staffing
<bullet> FPS will use 11 customer aligned regions (Same boundaries as 
FEMA, SSA, EPA, VA, GSA etc). Approximately 85 field locations. 
Approximately 50 field locations consolidated.
<bullet> It will have 950 authorized postiions--249 Net from current 
strength.
<bullet> Management and Support (Highlights)
        <bullet> Acquision (contracting) remains consolidated in CCG+33
        <bullet> GFS SSA and ISA+10
        <bullet> Regional Guard Program Mgt (Will have 26)
<bullet> National HG & Region Management --30
<bullet> Area Commander (Will have 69)
<bullet> Financial, HR, Logistic Support --43
<bullet> Field Operations (Highlights)
        <bullet> Special Agent--42
        <bullet> K9 Inspector--31 (Will have 433)
        <bullet> Polic Officer--259 (Will have 18 for proactive patrol)

    See also, PowerPoint Presentation below:
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Attachment 2:
------------------

                       Federal Protective Service

   Staff  Allocation
         Model  Homeland Security       FPS National Staffing Model Team Jun 2001 \1\
������������������������������������������������������������������������
Purpose
    <bullet> Inform FPS Director of Staffing study methodology, results 
and recommendations.

    <bullet> Obtain Director's approval of recommended staffing for 
uniformed personnel and supervisors.

    <bullet> Determine next steps/future efforts for Workload 
Allocation Team
   Homeland Security       FPS National Staffing Model Team Jun 2001 \2\
������������������������������������������������������������������������

Staffing Study Team
    <bullet> Formed to determine staffing required to accomplish the 
FPS Mission at the regional level.

    <bullet> Representatives from each region.

    <bullet> Two working meetings and numerous conference calls.

    <bullet> Primary focus on FPO and Inspector workload.

    <bullet> Workload determined based on what should be done.

    <bullet> Determined annual time officer are available.

    <bullet> Developed recommended supervisory ratios.

    <bullet> Recommends a significant increase in personnel.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \3\
������������������������������������������������������������������������

Assumptions
    <bullet> Protection of facilities requires a proactive model that 
emphasized patrols and risk reduction.

    <bullet> General threat situation does not change.

    <bullet> A prudent level of risk must be assumed.

    <bullet> Mission remains GSA Facilities only.

    <bullet> Facility security levels are a good measure of general 
risk and amount of time required.

    <bullet> Where a facility is located affects the amount of effort 
required--remote facilities require less effort than those in 
metropolitan areas.

    <bullet> The average workload for a task at a particular security 
level is the same in all regions.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \4\
������������������������������������������������������������������������
Risk Accepted

    <bullet> Time is allocated proportionally by security level--a 
Level 1 receives 9% of the time of a Level 4.

    <bullet> 68% of facilities and 47% of employees are outside areas 
recommended for 24-hour patrol.

    <bullet> 40% of facilities and 27% of employees are outside areas 
recommended for weekday facility patrols.

    <bullet> Changes to threats and required countermeasures are only 
assessed every two years for Level 4, every three years for Level 3 and 
every four years for Level 1 & 2.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \5\
������������������������������������������������������������������������
Major Work Categories
    <bullet> Calls, reports and arrests.
    <bullet> Patrol and proactive activities
        <bullet> 24-hour and weekday patrols in selected metropolitan 
        areas.
        <bullet> Community police patrols of all facilities.
        <bullet> Selective enforcement.
        <bullet> Liaison with other law enforcement agencies.
        <bullet> Guard post checks.
        <bullet> Travel to distant facilities.
    <bullet> Facility surveys, BSC, OEP and tenant training;
    <bullet> Specialized activities including WMD and K9.
    <bullet> Travel between local facilities, follow up, maintenance, 
admin, etc.
    <bullet> Workload is expressed in average hours for a report type, 
facility security level, or other function.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \6\
    Slide #7 follows: 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Federal Facilities (Continued)
    <bullet> 8,923 total GSA facilities.
        <bullet> 6 Level 5.
        <bullet> 839 level 4.
        <bullet> 712 level 3.
        <bullet> 4,679 level 2.
        <bullet> 2,56 level 1.
        <bullet> 64 level 0 (Unoccupied, delegated).
        <bullet> 60 level unknown.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \8\
������������������������������������������������������������������������
Call and Report Time
        <bullet> Each case type (incident code) was assigned a time 
        value to provide an average that included response, initial 
        investigation, backup officers and report writing.

        <bullet> Calls for service that do not result in a case were 
        counted as a half hour each.

        <bullet> Each report with an arrest equates to approximately 
        3.25 additional hours as a measure of complexity and for court 
        time.

        <bullet> 167 total FPO and Inspectors for this activity.
   Homeland Security       FPS National Staffing Model Team Jun 2001 \9\
������������������������������������������������������������������������

Patrol and Proactive Activities
        <bullet> 24-hour and weekday Patrols in Designated Metropolitan 
        Areas.
        <bullet> Community Police Patrols.
        <bullet> Law Enforcement Liaison
        <bullet> Guard Post Checks
        <bullet> Travel to cities over 60 miles from a servicing FPS 
        Office.
        <bullet> 934 total FPO and Inspectors for these activities.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \10\
������������������������������������������������������������������������

24-hour Patrols of Designated MSA
        <bullet> 24-hour, 7-day patrols in MSA with 60 + Facilities & 
        6K Population.
        <bullet> Staffing based on hours covered for 3d shift and 
        weekends.
        <bullet> Seven personnel per MSA with three Areas counted for 
        NCR.
        <bullet> 23 MSA proposed.
        <bullet> Includes Atlanta, Boston, Baltimore, Chicago, Dallas, 
        Denver, Detroit, Houston, Kansas City, Los Angeles, Miami, New 
        York, Philadelphia, Phoenix, Portland Or., Salt Lake City, San 
        Diego, San Francisco, St. Louis, Seattle and Washington DC. 
        Hartford and Ft. Collins added based on region specific 
        requests.
        <bullet> 175 total Police Officers for this activity.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \11\
������������������������������������������������������������������������
Weekday Patrols in Designated MSA.
        <bullet> Time to patrol facilities in MSA with 20 or more total 
        facilities with at least 3 Level 3 & 4.
        <bullet> Patrols primarily to check exterior areas and 
        entrances.
        <bullet> Average time based on Level 1 & 2 patrolled once a 
        day; Level 3 patrolled three times a day; Level 4 patrolled 
        four times a day.
        <bullet> All 24-hour, 7-day MSA inclued.
        <bullet> An additional 60 MSA recommended. Examples include 
        Providence, RI; Newark, NJ; Richmond, VA; Orlando, FL; 
        Minneapolis, MN; Omaha, NE; Oklahoma City, OK; and Anchorage, 
        AK.
        <bullet> 349 total FPO and Inspectors for this activity.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \12\
������������������������������������������������������������������������
Other Proactive Activities
        <bullet> Community police patrols
                <bullet> proactive patrols of all facilities; Frequency 
                based on security level.
                <bullet> Meet tenants, check for suspicious activity 
                and crime conducive conditions.
                <bullet> Times based on average--actual time will vary.
                <bullet> 311 total FPO and Inspectors for this 
                activity.

        <bullet> Investigated selective enforcement
                <bullet> Time to conduct emphasis patrols and 
                surveillance at facilities with frequent incidents.
                <bullet> Used to develop leads on reported crimes and 
                identify criminal or suspicious activity.
                <bullet> For facilities selected by commanders on an 
                irregular basis.
                <bullet> 78 total FPO and Inspectors for this activity.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \13\
������������������������������������������������������������������������

Other Patrol Activities
        <bullet> Time for travel to facilities located more than 60 
        miles from servicing FPS office.
                <bullet> Time allocated based on community police 
                patrol frequency of highest security level in the city.
                <bullet> 12 times a year for level 1 & 2 and 52 times 
                for level 3 & 4.
                <bullet> ?? estimated total FPO and Inspectors for this 
                activity.

        <bullet> Guard Post Checks.
                <bullet> Time to check guard posts is allocated 30 
                minutes per guard post each week.
                <bullet> 161 total FPO and Inspectors for this 
                activity.

        <bullet> Law Enforcement Liaison.
                <bullet> Meet with local, state and other federal law 
                enforcement.
                <bullet> Six hours a year for each city with additional 
                nine hours if the city has a level 4 facility.
                <bullet> 18 total FPO and Inspectors for for this 
                activity.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \14\
������������������������������������������������������������������������

Facility Surveys, Building Security Committee and Tenant Training
        <bullet> Vulnerability and security assessments are conducted 
        based on the security level of a facility. Level 1 and 2 
        facilities every 4 years; Level 3 every 3 years; Level 4 every 
        2 years.
        <bullet> Pre-lease and requested resurveys each year average 
        75% of total buildings over 5 years.
        <bullet> BSC Meetings, including presentation of survey.
        <bullet> OEP Assistance, Practice and Tenant Emergency Data 
        Update
        <bullet> Tenant Training.
        <bullet> 490 Inspectors for these activities.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \15\
������������������������������������������������������������������������
        <bullet> Specialized Activities
        <bullet> K9 screening, training and care time
        <bullet> WMD reaction training time
                <bullet> One measure for those training and responding 
                with a local team
                <bullet> One for those training only.
        <bullet> NCR Tunnel, SRT and Honor Guard.
        <bullet> NCR Mobile X-Ray truck.
        <bullet> NCR full time WMD team.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \16\
������������������������������������������������������������������������

Supervision
        <bullet> The national performance review during Clinton 
        administration proposed employee to supervisor ratio of 1: 15. 
        Reason was current business practice calls for high ratios.

        <bullet> Ray Kelly NYPD commissioner stated, ``the problem is 
        federal law enforcement is NOT a business enterprise. . . They 
        are armed and have authority to conduct personal searches, make 
        arrests and use deadly force. That kind of authority demands 
        tight spans of control, close supervision, a rigorous chain of 
        command and oversight''.

        <bullet> FEMA-guideline for the Incident Command System, a 
        foundation of how we respond to an incident calls for a ratio 
        of 1:5.
        <bullet> LAPD uses 1:7 or less.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \17\
������������������������������������������������������������������������

Supervisor Allocation
        <bullet> One district director for each 3 commands--8 commands 
        equals 3 districts dependent on size and complexity.
        <bullet> Commander supervises 3 to 7 sergeant, FPO, Inspector 
        or PSS.
        <bullet> One Lead Inspector per shift for command of 8 to 15.
        <bullet> One supervisor and one lead for each night and weekend 
        shift.
        <bullet> Additional supervisors depend on complexity of command 
        mission and size.
        <bullet> Supervisor should supervise all FPO and Inspectors on 
        shift--no split by series.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \18\
������������������������������������������������������������������������

     Average annual hours allocated base on facility security level
------------------------------------------------------------------------
                                        Additional to
                                          selected         Total with
  Security Level    All  Facilities    facilities with   weekday patrol.
                                       weekday patrol
------------------------------------------------------------------------
              Level 1       30.25             21.58             51.83
------------------------------------------------------------------------
              Level 2        58.5             21.58             80.08
------------------------------------------------------------------------
              Level 3         160             130.6             290.6
------------------------------------------------------------------------
              Level 4         337               260               597
------------------------------------------------------------------------

    Includes community police patrols, selective enforcement, scheduled 
surveys, BSC, tenant training and OEP.
    Does not include call and report time, LE Liaison, guard checks, 
travel, pre-lease surveys.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \19\
������������������������������������������������������������������������


    Recommended Uniformed Personnel by Region (excluding supervisors)
------------------------------------------------------------------------
    Region 1      Region 2    Region 3    Region 4   Region 5   Region 6
------------------------------------------------------------------------
            82   103         160         236        179        97
------------------------------------------------------------------------
      Region 7   Region 8    Region 9    Region 10  NCR        National
                                                                Total
------------------------------------------------------------------------
           205   125         230         113        287        1,817
------------------------------------------------------------------------

Current National Total of FPO, Lead PO,
FTO, PSS and Inspector is 730.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \20\
������������������������������������������������������������������������

Proposed supervision
        <bullet> District Director ?
        <bullet> Area Commander ?
        <bullet> Lead Inspector ?
        <bullet> Captain and Lieutenant ?
        <bullet> Sergeant 50?? (based on 24-hour/ weekend only)
   Homeland Security      FPS National Staffing Model Team Jun 2001 \21\
������������������������������������������������������������������������
Support and TMB Workload
        <bullet> Draft model from NCR for Mission Support Branches
                <bullet> Team has established draft standards.
                <bullet> Require additional data collection and 
                validation.

        <bullet> Region 7 has collected data on TMD
                <bullet> Major issue is SA workload to establish when 
                additional agents are needed.
                <bullet> Guard program and intelligence workload are 
                closer to completion.

        <bullet> Additional work to do in these areas.
                <bullet> Many allocations are based on number of 
                uniformed personnel.
                <bullet> Some based on number of commands etc.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \22\
������������������������������������������������������������������������

Other Issues
        <bullet> Issues with times standardization of which events are 
        reported under a particular event code, time captured in WEBRMS 
        for reports and Megacenter tracking of calls.
                <bullet> No FPS standard policy defining event cods and 
                listing which should be primary event.
                <bullet> No FPS standard policy on tracking of time for 
                reports.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \23\
������������������������������������������������������������������������

Backup and Deleted Slides
   Homeland Security      FPS National Staffing Model Team Jun 2001 \24\
������������������������������������������������������������������������

                Time Available to Accomplish the Mission
------------------------------------------------------------------------
     Available time
       Computation                 Days                    Hours
------------------------------------------------------------------------
      Total Annual Time   260                     2080
------------------------------------------------------------------------
        Non Patrol Time
------------------------------------------------------------------------
                       Lea19.5                    156
------------------------------------------------------------------------
              Sick and Lim7ted Duty               56
------------------------------------------------------------------------
                Holiday   10                      80
------------------------------------------------------------------------
               Training   17                      136
------------------------------------------------------------------------
                 Detail   6                       48
------------------------------------------------------------------------
  Physical fitness Time   26                      208
------------------------------------------------------------------------
         Available time   174.5                   1396
------------------------------------------------------------------------

   Homeland Security      FPS National Staffing Model Team Jun 2001 \25\
������������������������������������������������������������������������

The Threat
        <bullet> Threats include international terrorism, such as al-
        Qa'ida,
        <bullet> Domestic terrorism.
        <bullet> Organized criminal groups.
        <bullet> General criminal activity in and around facilities.
        <bullet> Civil Disturbance.
        <bullet> Natural Disasters.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \26\
������������������������������������������������������������������������


  Time Allocation for Travel between Facilities, Maintenance, Follow-up
                           and shift Briefings
------------------------------------------------------------------------------------------------------------------------------------------------
                        Activity                        Hours
------------------------------------------------------------------------
Shift Briefing 20 minutes a day.                           86
------------------------------------------------------------------------
Vehicle and equipment maintenance 1 hour a                 52
                            week.
------------------------------------------------------------------------
Follow-up, confer w/supv., respond to                     117
 email, time card, etc. 2.25 hours a week.
------------------------------------------------------------------------
Travel between facilities 4.5 hours a                     234
                            week.
------------------------------------------------------------------------
                     Total Hours                          489
------------------------------------------------------------------------

   Homeland Security      FPS National Staffing Model Team Jun 2001 \27\
������������������������������������������������������������������������
Risk
        <bullet> ``He who defends everything defend nothing.'' 
        Fredercik The Great.
        <bullet> Risk expressed as a function of availability and 
        frequency of tasks.
        <bullet> Risk Levels are minimal, low, moderate, high and 
        severe.
        <bullet> Risk Elements:
                <bullet> Availability to respond to calls for service.
                <bullet> Frequency of facility patrols.
                <bullet> Frequency of facility surveys and what changes 
                trigger an out of cycle survey.
                <bullet> Time allocated for BSC support, OEP 
                development & practice and Tenant Training.
                <bullet> Frequency of guard post checks.
        <bullet> Frequency of K9 or x-ray screening of vehicles 
        entering or adjacent to facilities.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \28\
������������������������������������������������������������������������

Recommended Risk Level and Characteristics

Moderate Risk
        <bullet> Personnel available for response in designated areas 
        and MSA?
        <bullet> 24-hour, 7-day patrols in MSA with 60 Facilities and 
        6k population. Weekday patrols in selected MSA with at least 20 
        facilities. Community Police Patrols and investigative 
        selective enforcement for all facilities based on security 
        level.
        <bullet> Survey based on security level every two to four 
        years; pre-lease or initial survey prior to occupancy and on 
        major changes.
        <bullet> Assist BSC with countermeasures and attend meetings. 
        OEP development and practice with updates of emergency data. 
        Awareness training one to four hours annually per facility 
        based on Level.
        <bullet> Check guard posts daily in designated MSA, others as 
        needed.
        <bullet> K9 and/or x-ray screening of delivery vehicles and 
        vehicles parked near selected facilities on a random basis.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \29\
������������������������������������������������������������������������

Other Risk Level Characteristics
        <bullet> Minimal Risk
                <bullet> Personnel available to respond to all calls 
                nationwide.
                <bullet> 24-hour patrols in areas with over ten 
                facilities, weekly patrols of all facilities.
                <bullet> Survey every facility annually; re-survey on 
                any build-out or change in tenant agency.
                <bullet> K9 and/ or x-ray screening of all delivery 
                vehicles and vehicles parked close to level 3 & 4 
                facilities.
        <bullet> Low Risk
                <bullet> Personnel available to respond in all areas 
                with ten or more facilities.
                <bullet> 24-hour patrols in selected MSA with at least 
                20 facilities, weekly patrols of all facilities.
                <bullet> Survey Level 3 & 4 facilities annually; others 
                bi-annually; re-survey on-major change and any change 
                in tenant agencies.
                <bullet> Check guard posts daily in MSA, weekly for all 
                posts.
                <bullet> K9 and/ or x-ray screening of all delivery 
                vehicles and daily screening of vehicles parked close 
                to all Level 4 facilities.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \30\
������������������������������������������������������������������������
Other Risk Characteristics (Continued)
        <bullet> High risk
                <bullet> Personnel available for response in major MSA.
                <bullet> 24-hour patrols in MSA with 80 Facilities and 
                10k population. Weekday patrols of facilities in 
                selected MSA with at least 60 facilities.
                <bullet> Survey based on security Level every three to 
                six years; pre-lease survey for level 3 & 4 only.
                <bullet> Attend BSC meetings. OEP development 
                assistance with annual updates of emergency data. Check 
                guard posts weekly in designated MSA, others annually.
                <bullet> K9 available for response in 24-hour, 7-day 
                MSA. 
        <bullet> Severe Risk
                <bullet> Personnel available for response in selected 
                areas only.
                <bullet> 24-hour patrols in MSA with at least 80 
                Facilities and 10k population served. Patrols of Level 
                3 & 4 weekly, Level 1 & 2 semi-annually.
                <bullet> Survey LV 3 & 4 every 4 years, others at pre-
                lease or occupancy only.
                <bullet> Attend BSC meetings. OEP development 
                assistance during survey only.
                <bullet> check guard posts monthly in 24-hor MSA, 
                others annually.
                <bullet> K9 available for response in 24-hour, 7-day 
                MSA only.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \31\
������������������������������������������������������������������������

Background
        <bullet> Previous FPS workload studies included Booz-allen in 
        1995 and PERF in 1999.
                <bullet> Booz-Allen assumed reduced Law Enforcement 
                tasks with primary response outside 22 cities by local 
                PD. Patrols of only largest buildings in 22 core and 
                satellite cities
                <bullet> Both studies understate leave, sick and 
                training. Neither account for physical fitness or time 
                deployed on details.
                <bullet> Neither provided for dedicated field 
                supervision.
                <bullet> Booz-Allen recommended 948 for uniformed 
                operations and protection activities. PERF recommended 
                1,197.
                <bullet> In the 10 years since the Booz-Allen study and 
                6 years since the PERF there have been significant 
                changes in the threat posed to Federal Facilities.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \32\
������������������������������������������������������������������������

Special Agent
                <bullet> One per JTTF city.
                <bullet> One general agent per district.
                <bullet> Additional general agents based on 
                investigative workload.
                <bullet> JTTF agent in city without general agent 
                should be available for up to 25% of their time to 
                assist with general cases.
   Homeland Security      FPS National Staffing Model Team Jun 2001 \33\
������������������������������������������������������������������������

    Ms. Norton. Thank you very much.
    Let's go to Mr. Ricci.

    STATEMENT OF JOSEPH RICCI, EXECUTIVE DIRECTOR, NATIONAL 
               ASSOCIATION OF SECURITY COMPANIES

    Mr. Ricci. Congresswoman Norton and members of the 
committee, thank you for your invitation to appear before the 
committee to offer views regarding the direction and viability 
of the Federal Protective Service.
    My name is Joseph Ricci. I am executive director of the 
National Association of Security Companies, the nation's only 
organization dedicated to representing private contract 
security companies. NASCO member companies employ nearly 
450,000 trained security guards serving throughout the 
government and commercial sectors.
    NASCO is committed to initiating and supporting efforts at 
the federal, state and local levels to raise standards for the 
licensing of private contract security firms and the 
registration, screening and training of security guards. Nearly 
2 million people serve as private security guards domestically, 
protecting federal facilities, critical infrastructure, 
businesses and public areas, supporting federal, state and 
local law enforcement.
    Private security guards are often the first responder on 
the scene of any security or terrorism-related threat and 
private security protects up to 85 percent of the nation's 
critical infrastructure. Protecting people and property from 
accidents and crime, controlling the access, observing and 
reporting are the principal role of security guards. Private 
security companies and their guards support and complement law 
enforcement and other first responders. They do not replace 
these considerably better trained counterparts.
    There are thousands of examples of law enforcement and 
contract security working together to solve crimes, improve 
security measures, and make our country safer and more secure. 
Contract security is primarily regulated at the state level. 
Currently, 40 states license or regulate private security 
companies and security guards. Regulation at the state level 
varies greatly, and there is a trend for increased regulation 
led by the states of New York, California, Florida and 
Virginia.
    NASCO is constantly active at the state level, working to 
increase screening and training standards. During the past few 
months, NASCO has committed significant resources to 
introducing legislation to license and regulate security in the 
states of Mississippi, Alabama and Colorado--three states that 
do not currently have any private security licensing, screening 
or training requirements.
    In 2004, with strong NASCO support, Congress passed the 
Private Security Officer Employment Authorization Act, which 
provided employers nationwide with the authority to obtain 
federal criminal checks on their private security guards 
through their states.
    Tens of thousands of contract security guards are currently 
protecting government facilities around the world and the 
training qualification standards for contract security guards 
are subject to regulations of the state where the facility is 
located, but more so by the regulations and requirements of the 
federal agency for which they are contracting.
    One large federal customer for contract security is the 
Department of Defense. DOD recently submitted a report to 
Congress on contractor performance of security guard functions, 
citing a performance survey done comparing contract security 
guards and military personnel serving: ``The report confirmed 
the ability of the contract guard force to meet specified 
function requirements and the individual performance evaluation 
demonstrated comparable abilities among the two sampling 
groups, thus indicating the contract security guard performed 
at the same levels as military counterparts.''
    Currently, there are 15,000 contract security guards 
working at facilities under the jurisdiction of the Federal 
Protective Service. Training standards for the contract 
security guards fulfilling FPS contracts are set by TSA, FPS 
and the contracting agency or department, and are significantly 
higher than any state requirements. The FPS requires that all 
security guards complete 80 hours of pre-assignment training on 
functions such as access control, traffic control, security and 
fire systems, reporting and response, as well as 8 hours-plus 
of on-site manual in-service training.
    All contract security guards must pass an extensive 
background check and a written exam prior to employment. Each 
officer's required qualifications, certifications, and other 
requirements are tracked in the FPS contract employment 
requirement tracking system, or CERTS, and by the contracting 
firm itself.
    Although problems have recently been identified with 
contractor compliance, we believe that through cooperative 
efforts and the increased focus of FPS on inspections, these 
issues can be quickly resolved. Earlier this year, NASCO 
created an FPS Working Group in which NASCO member companies 
and FPS officials are working together to increase the 
effectiveness of oversight, management, and operational 
capacity of FPS. Contract security companies and their guards 
are working at government facilities.
    Private security plays a majority role in America in the 
protection of property, people and assets. In the private and 
public sector, private security guards are relied upon as the 
first line of defense against illegal, criminal and terrorist 
activity. NASCO is committed to increasing the quality of the 
selection, training and standards for private security guards.
    We will continue to work at the local, state and federal 
levels, and we welcome the opportunity to work with Congress on 
these issues related to the oversight and regulation of private 
security and specifically, contract security.
    Thank you.
    [The statement of Mr. Ricci follows:]

                   Prepared Statement of Joseph Ricci

    Chairman Thompson and Ranking Member King, and members of the 
Committee, thank you for the invitation to appear before the Committee 
to offer views regarding ``The Direction and Viability of the Federal 
Protective Service.'' My name is Joseph Ricci, and I am the Executive 
Director of the National Association of Security Companies (NASCO).
    NASCO is the nation's only organization dedicated to representing 
private contract security companies, and NASCO member companies employ 
nearly 450,000 trained security guards serving throughout the 
government and commercial sector. Our members include:
        <bullet> Allied Barton Security Services
        <bullet> American Security Programs
        <bullet> Andrews International
        <bullet> Guardsmark
        <bullet> Industrial Security Services
        <bullet> International RAM Associates
        <bullet> Levy Security
        <bullet> SecTek Inc.
        <bullet> SecurAmerica
        <bullet> Securitas Security Services USA
        <bullet> Security Forces
        <bullet> Special Response Corporation
        <bullet> The Wackenhut Corporation
        <bullet> US Security Associates
        <bullet> WSA Corporation
    NASCO is committed to initiating and supporting efforts at the 
federal, state and local levels to raise standards for the licensing of 
private contract security firms and the registration, screening and 
training of security guards. Currently NASCO is working in several 
states on legislation to increase standards for security guard 
licensing, including Mississippi, Alabama and Colorado, states that 
currently do not regulate private security. NASCO and its members also 
worked closely with Congress and the Justice Department on the passage 
and rulemaking for the ``Private Security Officers Employment 
Authorization Act of 2004'' (PSOEAA) that granted employers of private 
security guards a means to request federal criminal record checks for 
security guards in every state.
    In addition to serving as Executive Director of NASCO, I serve on 
the ASIS International Private Security Services Council which provides 
input for the ASIS Private Security Officer Selection and Training 
Guideline. Developed and continually reviewed by security industry 
leaders, this Guideline sets forth minimum criteria that regulating 
bodies and companies can use for the selection and training of private 
security guards.

The Role of Private Security
    Nearly 2 million people are employed in private security 
domestically compared to less than 700,000 law enforcement personnel. 
Private security guards are guarding federal facilities, critical 
infrastructure, businesses and public areas, working with the armed 
forces in Iraq and at DoD installations, supporting the operations of 
the Customs and Border Patrol, and providing screening at airports for 
TSA. Private security guards are often the ``first'' responder on the 
scene of any security or terrorism related incident, and private 
security protects 85% of nation's critical infrastructure. Nearly 75 
percent of private security guards work for contract security 
companies, with the balance serving as proprietary or in-house 
security. The vast majority of contract security firms employ many 
former law enforcement personnel in senior management.
    Contract security guards are trained to support law enforcement and 
not replace law enforcement officers that received considerable more 
training throughout their careers. Contract security guards have more 
limited authorities than police and other law officers. Specific powers 
vary by jurisdiction, but they generally correspond to the police 
authorities of private citizens. Security guards may have other 
authorities or may face further limitations to their police power 
according to state licensing or other regulation, where it exists.\1\
---------------------------------------------------------------------------
    \1\ CRS Report For Congress, ``Guarding America: Security Guards 
and U.S. Critical Infrastructure Protection'' November 12, 2004, RL3260
---------------------------------------------------------------------------
    Protecting people and property from accidents and crime, 
controlling access, observing and reporting are the principal role of 
security guards. They may enforce laws on their employer's grounds, 
conduct incident interviews, prepare incident reports, and provide 
legal testimony. They may be armed, as required by specific duty 
assignments, consistent with state and federal laws governing private 
ownership and use of firearms.
    Private security companies and their guards are working to support 
and complement law enforcement and other first-responders. There are 
thousands of examples of law enforcement and contract security working 
together to solve crimes and improve security measures making our 
country safer and more secure. NASCO strongly believes contract 
security performance improves through partnering with it clients to 
develop and access the best solutions and capabilities.

The Regulation of Private Security
    Contract security is primarily regulated at the state level. 
Currently 40 states license and regulate private security companies and 
security guards. Regulation at the state level varies greatly in 
regards to screening and training. For training, requirements range 
from a minimum of 4 hours or less of pre-assignment and no in-service 
training, to 40 plus hours of training combining pre-assignment, onsite 
and in-service. Background screening requirements range from local 
criminal checks to national checks. There are greater requirements for 
armed as opposed to unarmed guards, and they too vary according to the 
state.
    There is a trend for increased regulation at the state levels, with 
leading states such as New York and California recently raising 
training standards and hours and including proprietary or in-house 
security guards into registration regulations. Training standards have 
also recently been increased in New Jersey, and there is pending 
legislation in the District of Columbia.
    NASCO is constantly active at the state level, working to increase 
screening and training standards, or simply trying to start the process 
of licensing and registering security guards. Just during the past few 
months, NASCO has committed significant resources to introducing 
legislation to license and regulate security in Mississippi, Alabama 
and Colorado, three states that currently do not have any licensing, 
screening or training requirements.
    NASCO has also supported raising security officer standards at the 
federal level. In the early 1990's, NASCO pushed for passage of the 
``Private Security Officer Quality Assurance Act'' which sought to 
create minimum state standards for licensing, training and permit 
access to federal criminal records for background checks. In 2004, with 
strong NASCO support, Congress passed the Private Security Officer 
Employment Authorization Act (PSOEAA) which provided employers 
nationwide the authority to obtain federal criminal background checks 
on their private security officers by going through the states.

Contract Security and the Federal Government
    Tens of thousands of contract security guards are currently 
protecting government facilities around the world. The training and 
qualification standards for contract security guards are subject to 
regulations of the state where the facility is located, but more so, by 
the regulations and requirements of the federal agency with which they 
are contracting. Contract security guards are qualified and able to 
perform the security functions required of them by federal agencies 
such as the Federal Protective Services.
    One large federal customer for contract security is the Department 
of Defense. In 2003, due to increases in security requirements after 9/
11 and the number of active duty and reserve personnel being sent 
overseas, it was necessary that contract security guards fulfill 
security roles previously performed by military employees. Congress 
passed legislation temporarily lifting a restriction against the use of 
contract security guards at U.S. military, and now there are 130 DoD 
installations using contract security guards.
    Pursuant to the 2007 National Defense Authorization Act, DoD 
submitted a report to Congress on ``Contractor Performance of Security 
Guard Functions.'' \2\ The Report covered the subject of the 
performance and cited a performance survey done comparing contract 
security guards and military personnel serving as security guards 
during a three-phase operational evaluation (OPEVAL) at two Navy 
installations in December 2004. The Report stated that;
---------------------------------------------------------------------------
    \2\ Department of Defense, Report to Congress on ``Contractor 
Performance of Security Guard Function'', January 2007.
---------------------------------------------------------------------------
        ``Combined, the three phases of the OPEVAL confirmed the 
        ability of the contract guard force to meet specified AT/FP 
        function requirements at both the tactical employment and 
        installations operational levels. The individual performance 
        evaluation demonstrated comparable abilities among the two 
        sampling groups, thus indicating that contract security guards 
        perform AT/FP functions as well as military counterparts (87.3% 
        successful performance of required tasks for contract guards as 
        compared to 87.4% for military personnel)''
    The DoD Report also noted that contract guards continue to develop 
and foster good working relationships with the military law enforcement 
elements on the installations where they are working, and it concluded; 
``(t)he authority for the use of contracted security guards at military 
installations gives DoD a viable and effective way to meet and adjust 
the requirements of increased security guard functions.''

Contract Security and FPS
    Currently there are 15,000 contract security guards working at 
facilities under the jurisdiction of Federal Protective Service (FPS). 
Training standards for contract security guards fulfilling FPS 
contracts are set by GSA and FPS, and are higher than any state 
requirements. The FPS requires that all security guards complete 80 
hours of pre-assignment training on access and traffic control, 
security and fire systems, reports and response, as well as 8 plus 
hours of onsite and annual in-service training. All contract security 
guards must pass an extensive background check and pass an exam prior 
to employment and additional background checks every two years, as well 
as complete annual refresher training, CPR and domestic violence 
certification, annual weapons re-qualification, medical and first-aid 
certification.
    Performance and other standards for contract security guards (CSG) 
are outlined in the Physical Security Handbook 440-2-H Chapter 9 
including jurisdiction, determining need, cost, training, duties and 
compliance. Standards and compliance are the responsibility of the 
Contracting Officer Representative (COR), usually a FPS official with 
physical security expertise who determine the needs of the facility and 
executes the contract.
    Each officer's required qualifications, certifications and other 
requirements are tracked through the FPS Contract Guard Employment 
requirements Tracking System (CERTS) and by the contracting firm.
    Although problems have recently been identified with contractor 
compliance, we believe that through cooperative efforts and the 
increased focus of FPS on inspections, these issues can be quickly 
resolved. NASCO supports the steps that ICE has proposed to improve the 
monitoring of the FPS contract guard program by increasing the number 
of employees trained to oversee the program, provide them with better 
training, and use tracking mechanisms to ensure quality assurance.\3\
---------------------------------------------------------------------------
    \3\ September 13, 2006 Memorandum from Julie Meyers, ICE Asst. Sec, 
to Richard Skiner, DHS IG, on the OIG Draft Report ``Federal Protective 
Service Needs to More Effectively Oversee its Contract Guard Program.'' 
August, 2006.
---------------------------------------------------------------------------
    NASCO is also working closely with FPS to re-examine the role, 
responsibility and tasks of contract security personnel to validate 
that contract requirements and training are validated against actual 
daily responsibilities and activities and that the training best 
supports these roles.
    Earlier this year, NASCO created a FPS Working Group in which NASCO 
member companies and FPS officials can work together to increase the 
effectiveness of the oversight, management and operational capability 
of FPS and the contract security companies and their guards working at 
FPS facilities. The FPS Working Group is currently in the process of 
conducting a task analysis that will include the insight and expertise 
of senior security management, supervisors, users and the security 
guards themselves to determine the amount of time and criticality of 
tasks to best validate training.
    As with any service industry, especially in a market-driven 
economy, problems surface and NASCO is committed to work with FPS to 
solve these problems.

Conclusion
    Private security plays the majority role in America in the 
protection of property, people and assets. In the private and public 
sector, private security guards are relied upon as the first line of 
defense against illegal, criminal and terrorist activity, and NASCO is 
committed to increasing the quality of the selection, training, and 
standards for private security guards.
    We will continue to work at the local, state and federal level, and 
we welcome the opportunity to work with Congress on issues related to 
the oversight and regulation of private security and specifically 
contract security.

    Ms. Norton. Thank you, Mr. Ricci.
    As you both could tell from the questions to the panel, on 
both sides there is a concern that the core peace officer 
function of the FPS be maintained, which is to say that there 
be officers who have the same ability to do policing and 
terrorism work as officers in our cities and certainly in 
Congress and in the federal sector.
    I certainly understand that there is a role for security 
officers. The concern is with the elimination of officers in 
very large numbers and with the inspector role, which appears 
to be a largely management role, a paperwork role, a role that 
has little to do with patrolling.
    Some of these officers, Mr. Wright, the inspectors, as I 
understand it, would normally be peace officers. Is that your 
understanding?
    Mr. Wright. Correct. FPS inspectors are full-time law 
enforcements. However, our position descriptions and our roles 
within the agency are largely administrative. A lot of time 
spent preparing reports, preparing security assessments, 
oversights of contract security guards and contracts. That 
allows very little time for patrol.
    Ms. Norton. The patrolling function is one that would be of 
great concern to us. When we say ``federal facilities,'' that 
hides a bunch of things. We are talking about every kind of 
federal office, from members' offices, to offices where huge 
numbers of people, some of them very troubled and very 
disappointed with the federal government coming in related to 
the huge number of services. Some of them could be veterans. 
Some of them could be Social Security. Many of them would be 
disabled people.
    Do these inspectors continue to patrol in the federal 
facilities where they are assigned? Or are they assigned to 
federal facilities?
    Mr. Wright. Inspectors are assigned to federal facilities. 
In most regions, we serve in more of an administrative tasking.
    Ms. Norton. Don't they have to travel to inspect? They 
can't keep inspecting their own building over and over. Don't 
they have to inspect other facilities as well?
    Mr. Wright. Correct. I can draw my experiences as an 
inspector in Kansas City. I was specifically responsible for 20 
properties. Overall, I am responsible for every property in the 
region VI.
    Ms. Norton. Does that take up virtually all your time? Or 
do you spend any time patrolling and doing the core peace 
officer function?
    Mr. Wright. My experience is that inspectors spend very 
little time on proactive patrol and surveillance of federal 
facilities.
    Ms. Norton. So these peace officers in essence will be paid 
as peace officers, will be carrying guns, but for the most part 
will not be doing the peace officer function. Is that your 
testimony?
    Mr. Wright. We will do very little proactive patrol and we 
will be available for emergency response.
    Ms. Norton. Well, of course you won't be present, 
apparently, in 50 cities. I don't expect that that will be the 
District of Columbia, although the reductions in peace officers 
are likely to occur throughout the country. But we understand 
there will be at least 50 cities where there will be no peace 
officers. Do you have any idea of which cities these will be?
    Mr. Wright. No, I do not. The agency has insisted that this 
plan is pre-decisional. Hence they have no requirement to 
advise myself or my fellow officers of the plan.
    Ms. Norton. You recognize that they say they have an MOU 
with various jurisdictions, sometimes they have said as many as 
30 or 31. They have not released those to either other 
committees which have jurisdiction over the Federal Protective 
Service, and I am on both of these committees. As I understand 
it, these cities have been told that ``we will help you and you 
can help us.''
    We do not know that they have been told that some of these 
places will have no peace officers whatsoever and that there 
will be nobody on the weekends. Do you believe that it would be 
prudent to have an MOU with a local police force where the only 
presence would be security guards and not people who are 
empowered to arrest?
    Mr. Wright. Typically, an MOU would imply reciprocity. The 
local police department would support the Federal Protective 
Service and the federal government in times of need, and that 
the federal government would reciprocate.
    Ms. Norton. So they always have peace officers. The local 
jurisdiction always has peace officers. So you are saying if 
they have an MOU, there ought to be a peace officer or somebody 
with the power to arrest always in order to reciprocate in the 
MOU terms.
    Mr. Wright. Correct.
    Ms. Norton. Mr. Ricci, some security guards carry guns and 
some do not. Is that correct?
    Mr. Ricci. Yes, ma'am.
    Ms. Norton. What is the difference in the training of those 
who carry guns and those who not? And in the assignment of 
those who carry guns and those who not? And can the ones who 
carry guns make arrests?
    Mr. Ricci. I think can say a little bit of what Director 
Schenkel mentioned. The majority of the security guards that 
are employed by FPS are permitted to carry arms. The permission 
for arms and whether the guards are armed or unarmed is 
determined by the FPS assessment when they do their risk 
assessment and create the post orders, if you will, or the 
project orders.
    So the determination is done by FPS. The training is 
significantly higher if they are armed. They do have to 
recertify their weapons every year. They do have to go through 
an additional training for use of force. So there is additional 
training that is applied for anybody with weapons. I do not 
believe that they have arrest powers.
    Ms. Norton. So they are armed for what purpose?
    Mr. Ricci. To defend themselves and to defend the property. 
They have the authority to defend themselves, the people in the 
building, and the property itself.
    Ms. Norton. Of course, if an arrest is to be made while 
they are holding a gun on somebody, they have to make sure 
someone calls 9-1-1, so that somebody who can arrest the person 
does come. Is that the case?
    Mr. Ricci. They currently can detain. The officers are--
    Ms. Norton. I could detain is somehow I could get 
somebody--
    Mr. Ricci. But they are trained to detain, ma'am. 
Currently, the procedures and policies that we see that are in 
place now are not really changing. The process right now is to 
make two notifications, which are to both the FPS and to the 
mega-center. Therefore, we get response. There are 8,800 
buildings. There are only 1,200 FPS workers. So they are 
obviously not in each building. So the current response is to 
rely on local law enforcement.
    Ms. Norton. I want to move on to the next member. I just 
want to say we are dealing with terrorism, in times of 
increased crime, and we see the reduction in the number of 
officers and the increase in people who can detain. Let's see 
if some of the thugs out here, knowing that you could only 
detain, and some of the terrorists are satisfied with that kind 
of oversight of federal facilities.
    Mr. Reichert?
    Mr. Reichert. Thank you, Madam Chair.
    Mr. Ricci, do you have law enforcement experience?
    Mr. Ricci. I do not, sir.
    Mr. Reichert. What is your background?
    Mr. Ricci. My background is I worked in the contract 
security industry for about the last 6 or 7 years, and also in 
association management.
    Mr. Reichert. Okay, thank you.
    I first want to take a moment, Madam Chair, to thank the 
director for his service to our country as a Marine. And also, 
Mr. Wright, thank you so much for your service to our country 
as a 21-year FPS officer.
    I take it you two guys have known each other for a while?
    Mr. Ricci. No, sir.
    Mr. Wright. No. We just met this morning.
    Mr. Reichert. Did you just meet?
    Mr. Ricci. Absolutely.
    Mr. Reichert. That is not good.
    [Laughter.]
    As you probably heard in my opening comments, in my first 
round of questioning, I was a cop for 33 years so I get the 
working with the security people. Sometimes late at night, in 
my patrol car back in the early 1970s, the security person was 
my backup. There is a great friendship and a great partnership 
between the two of you in your professions. I know you are 
aware of that.
    But there are some issues that you have to deal with. One 
of the things that really bothers me is this 30 percent of the 
security guards didn't meet the requirements. What happened 
there? Why was that?
    Mr. Ricci. I think when we were talking about the 30 
percent. They didn't necessarily meet the requirements because 
they weren't carrying the specific cards or some of the 
registrations were out of sync. We admit that that is a problem 
and we want to work with FPS and we are trying to work with FPS 
to make sure the search program is kept up to date; that the 
contracting companies are in compliance and working to make 
sure that they are maintaining higher standards of 
recordkeeping. It is a process we are working on together in 
partnership on it.
    Mr. Reichert. As far as the management, we touched on this 
in the first panel, the management of the security guards. 
Maybe Mr. Wright you could comment on that. Is that left up to 
the FPS officers?
    Mr. Wright. Correct. Every FPS officer, police officers, 
and inspectors are responsible for oversight of the contract 
security guards. My comment would be this study was done in 
NCR, and we have lost considerable numbers of police officers 
and inspectors from NCR, while the duties have piled up on 
inspectors, administrative-type duties have piled up on 
inspectors.
    We have to provide oversight. The problem is that the 
manpower is not there.
    Mr. Reichert. What is the rank structure within FPS?
    Mr. Wright. There are actually two different chains of 
command. You have a regional director, deputy regional 
director, district director, and area commander. That is where 
the chain of command splits. On one side, you have inspectors 
and on the other side of the chain of command you have 
sergeants, corporals and police officers.
    As I say, all law enforcement officers within FPS are 
responsible for oversight of contract security officers.
    Mr. Reichert. Okay. So on both sides, sergeants, corporals, 
and then the inspectors on the other side, have some oversight.
    Mr. Wright. Correct.
    Mr. Reichert. The inspectors, are they the ones that do the 
follow-up work on crime? Who are your investigators?
    Mr. Wright. The special agents. The response to a 
particular crime could be either the police officers or the 
inspectors. At that point, we would accomplish a preliminary 
report, accomplish as much of a preliminary investigation as we 
had time for and could on-scene, and then it gets turned over 
to a special agent.
    Mr. Reichert. Now, I used the figure of 250. Is it 300 
people that may be eliminated, 300 positions? But they will 
find jobs somewhere else.
    Mr. Wright. Right. The plans that I have seen call for the 
elimination of 259 police officers. These are individuals that 
spend their full time patrolling and responding to incidents 
and crimes.
    Mr. Reichert. Mr. Wright and Mr. Ricci, were you a part of 
the discussion with your higher command structure in coming up 
with the recommendation?
    Mr. Wright. Absolutely not. The union was not invited to 
participate in any aspect.
    Mr. Reichert. Mr. Ricci, were you part of the discussion?
    Mr. Ricci. No, sir.
    Mr. Reichert. How did you become aware of the fact that 
they were looking at cutting 300 positions or so?
    Mr. Wright. I knew by media articles in the summer of 2006 
that there were definitely deficit problems. At that point, I 
didn't concern myself with it because we have always pulled 
through at some point or other. In November of 2006, the first 
warning sign was shown when they cut police officers' and 
inspectors' retention pay. That showed us that this deficit was 
serious. That was at the end of November.
    On about January 5, I was advised that the retention and 
pay indeed had been cut, and that further plans to reduce the 
agency were ensuing. On or about February 5, I was advised that 
the agency was going down to 950 employees. At all times, I was 
told that this move was due to deficit, although the FPS 
management did put a picture on it as the evolution of FPS.
    Mr. Reichert. Madam Chair, I recognize that my time is 
beginning to expire here. If I could just follow up with two 
real quick questions?
    Ms. Norton. The chair would be more than happy, but staff 
informs me we have to get out of the room at 12:30 and we have 
three more members. I am sorry.
    Mr. Carney?
    Mr. Carney. Thank you, Madam Chairman.
    Mr. Wright, do you have any idea how many FPS officers 
might decide to leave for private contractors if their jobs are 
cut and what impact that might have?
    Mr. Wright. With the announcement of the cut in retention 
pay on November 30, we were at 1,220 officers. Over the years 
since our inception into DHS in March 2003, we had attrited 
from about 1,550 down to 1,220 on the day the retention pay was 
announced as going away. Today, as I understand it, we are down 
to about 1,170. I have had two good friends in the last 1 1/2 
weeks leave FPS service, experienced officers. I have another 
good friend out in San Diego that is leaving on May 13.
    It is absolutely affecting morale. It is taking attention 
away from the job, the issue at hand. I have officers out there 
who have given their careers to FPS. They have dedicated their 
time, their loyalty, and they are being let down. And now they 
have to worry about their careers and their livelihoods.
    Mr. Carney. This next question is actually for both of you. 
What do we know about the certification maintenance of contract 
officers in particular? Those who hold clearances, for example, 
are their backgrounds done? Is it an SSBI? What is the 
background there? Are there periodic reviews, up to date? That 
kind of thing. Those are very important issues.
    Mr. Wright. I can speak for region VI. I think one of our 
problems is in each region, we used to have one or two 
individuals dedicated to maintenance of these files and 
clearances of security officers. Those positions have been 
eliminated and sent into a central unit. For example, my guy in 
Kansas City who handled the process from bringing them onto the 
contract, ensuring everything was done--my guy in Kansas City 
is no longer there. It is all handled somewhere at a central 
unit.
    This goes back to the inspector duties. FPS police officers 
can be out there every day and handle a lot of this material, 
but the inspectors are being overtasked with administrative 
duties. It is just almost weekly we get another assignment. 
That is a problem. That is how we fall away. Region VI is very 
good at maintaining these contract security guard files, but it 
is very labor-intensive.
    Mr. Carney. Mr. Ricci, do you care to comment?
    Mr. Ricci. To confirm what Mr. Wright said, the compliance 
issues for certification and backgrounds and the other 
requirements are kept dually. They are kept in the CERTS 
system, but they are also maintained by the contract security 
company. So there is a dual administrative function there. We 
have to report that information to the FPS and it gets into the 
CERTS system. So there is a process that is there.
    There have been times in the past where there have been 
delays in getting background checks, which I think are required 
every 2 years for security officers. There have been a variety 
of delays across the board in the whole government community. 
So some of those delays have an impact on the ability to man 
positions which we feel are critical.
    Mr. Carney. Who pays for the background investigations?
    Mr. Ricci. The background investigations are a part of the 
contract.
    Mr. Carney. Okay. Understood.
    Thank you. No further questions.
    Ms. Norton. Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair.
    Mr. Wright, you and your fellow FPS officers work alongside 
private contractors on a daily basis. How do you feel about the 
role they have been given within the agency? And in your 
experience, do you feel they are as reliable as FPS officers 
and well enough trained to protect federal buildings in the 
current climate?
    Mr. Wright. None of this is to the denigration of any of my 
security officers that I work with or did work with every day. 
In level three and level four buildings, the higher-level 
security buildings, I believe that these should be government 
officers. That way, we can maintain the certification. Well, it 
won't even be a certification. They will essentially be 
government security guards.
    It is a mixed bag. In Kansas City, we are somewhat 
fortunate to have a good contract, a good solid contract. 
However, there are holes and individuals do get hired by these 
companies that really don't belong. They don't have a work 
ethic. They are not vested in the government. This is just 
another job, just another post.
    On the other hand, we have a lot of former military police 
officers, retired types, that come out and they are a bunch of 
good guys, good backup. The problem is the authority. I think 
one thing that has been neglected here today is the authority 
of security officers is granted by each municipality. Whereas 
Kansas City has pretty much a hands-off approach. Individuals 
commissioned by Kansas City as a private security guard, 
basically they will not put hands on anyone entering any 
facility. Whereas I am sure it is different in other 
municipalities.
    Ms. Clarke. Let me just follow up. From just my 
observations here, what has been described has been sort of an 
imposed policy for deficit reduction.
    Mr. Wright, was there any consultation with you or your 
fellow officers, given the struggle that FPS has right now 
about what some of the best practices could be for reorganizing 
the agency, given its fiscal constraints?
    You talked about how you became aware of how the 
organization was going to be reorganized. Did anyone consult 
with you or your membership?
    Mr. Wright. Not at all. I lay this directly at the feet of 
Immigration, Customs and Enforcement. I have served under 
directors in FPS. Once we got to know each other, fairly 
forthcoming. I though we could deal together. Immigration and 
Customs and Enforcement, they are tough group to work for. FPS 
is the little brother. As Mr. Jackson stated in his testimony 
on April 18, FPS needs a big brother.
    Well, we needed a big brother. We need a Wally Cleaver, and 
we got Eddie Haskell. There is no respect for the union, no 
respect for the employees.
    Ms. Clarke. I heard in Director Schenkel's testimony that 
DHS plans to reduce the FPS personnel by about 300 nationwide 
and about 101 in the New York region alone. That really 
concerns me. What impact is this likely to have on the 
remaining FPS personnel in doing their jobs?
    Mr. Wright. In clarifying the reductions, we have 
inspectors, police officers, special agents. Police officers 
are slated for the largest reductions. There will be 18 police 
officers left in this nation. You have I believe 20 or 25 
police officers in New York City alone, so basically you are 
going to go down to one and leave it up to inspectors who have 
all the administrative taskings to respond and patrol, which 
that is being eliminated also.
    What was the second part of your question?
    Ms. Clarke. I wanted to get a sense of what is likely to be 
the impact on the remaining personnel in doing their jobs?
    Mr. Wright. The impact on the remaining personnel is FPS 
inspectors, who are already overtasked, are going to be further 
overtasked. We anticipate the last I knew adding about 150 
inspectors, but the 400 or so inspectors we have on board now 
average between 20 and 60 buildings apiece.
    Ms. Norton. Thank you very much, Mr. Wright. We have to go 
to Mr. Green now.
    Mr. Green. Thank you, Madam Chair.
    And thank you, witnesses, for your testimony today.
    Mr. Wright, on page four of your testimony, the third 
paragraph down, the very last sentence, you make a very strong 
statement that is almost an indictment. I shall read it, and I 
would like to talk to you for just a moment about it: ``The 
proposed 950 employee FPS is driven by money``--I assume you 
are talking about the proposal to have 950 employees--``not 
risk analysis by law enforcement or security professionals.''
    So the proposal to have 950 versus another number, in your 
opinion, is driven by money. Is that correct?
    Mr. Wright. Correct.
    Mr. Green. Without additional comment just yet, let me ask 
you this. How do you know that it is not driven by risk 
analysis?
    Mr. Wright. In the days that the agency came to be somewhat 
forthcoming, I was told that it was budget. I asked for any 
plans, anything that could show me where did this 950 come 
from, and that has never been provided.
    Mr. Green. Mr. Ricci, are you aware of any risk analysis 
that has been performed?
    Mr. Ricci. I know that the FPS consistently does risk 
analysis on the properties themselves in determining the guard 
levels and the contracts and the post orders for the given 
building.
    Mr. Green. We are talking about now a risk analysis to 
ascertain the appropriate number of peace officers versus 
contract employees?
    Mr. Ricci. Not that I am aware of.
    Mr. Green. My assumption is that you would not cross the 
street before looking both ways. That is a risk assessment. 
Would you agree that if we are going to downsize and outsource 
and to a certain extent privatize, that there should be some 
sort of risk analysis by a professional entity capable, 
competent and qualified, of giving an appropriate summary as to 
what the risks are?
    Mr. Ricci. I certainly think that there ought to be 
professionals consulted in regards to the operational impact of 
any kind of reduction in force or change in the oversight and 
compliance issues, and it ought to be something that is done 
across the board involving both industry and government.
    Mr. Green. Would you agree that if we have not had an 
appropriate risk analysis, that someone is assuming a large 
amount of risk, because if you don't understand the risk, you 
are assuming the risk. So someone is assuming an inordinate 
amount of risk if we haven't had such an analysis. Would you 
agree?
    Mr. Ricci. It all depends on what we are talking about in 
terms of risk. I know Mr. Wright has a comment here, but I 
think what we are talking about is a change in the force of 
compliance--
    Mr. Green. I understand, but if something occurs--God 
forbid that it would--but if something occurs and we have not 
properly assessed the risk, and we have inappropriate personnel 
at a given station where this incident occurs, someone has 
assumed the risk.
    Mr. Wright. Someone has assumed a major liability. I will 
say that the one FPS workload allocation study that has been 
conducted by FPS personnel, personnel that are experienced in 
law enforcement and security workload allocation, resulted in a 
number of employees considerably higher, almost three-times 
higher than the 950. I have provided that workload allocation 
model for the record on disc, and I have an extra disc here.
    Mr. Green. Has it been placed in the record, sir?
    Mr. Wright. Yes, sir.
    Mr. Green. Okay. Again, you agree, sir, that the risk is 
something that we ought not assume without a proper analysis. I 
assume you both agree.
    Mr. Wright. Right.
    Mr. Ricci. Yes, sir.
    Mr. Green. If it has not been done, would you agree that it 
might be appropriate for additional action from without the 
agency to intercede in some way, such that the risk can be 
properly ascertained? Would you want to see the American people 
unprotected? I think not.
    I yield back the balance of my time. Thank you, Madam 
Chair.
    Ms. Norton. I thank you very much, Mr. Green.
    As I close this hearing, I just want to note that Mr. Ricci 
in his testimony I think honestly concedes that there is work 
to be done with respect to contracting. I know the testimony 
that we have heard from Mr. Wright concerning the inspectors 
and what looks like cutting the number of peace officers 
virtually in half.
    I do note that Mr. Ricci indicates that this can be done, 
these contracting problems can be done--and I am looking at his 
testimony--with increased focus of monitoring the FPS contract 
guard program, by increasing the number of employees trained to 
oversee the program, more effective oversight management and 
operational capability of FPS.
    The fact is that for the contracting duties for whatever 
new or improved FPS we have, we are piling it on the people who 
are already there and coming in diminishing numbers.
    Mr. Wright. Correct. And that leaves no one for proactive 
patrol and response to calls for service.
    Ms. Norton. I am telling you this committee, Homeland 
Security Committee, cannot possibly take the position that 
there should be less protection of millions of Americans who 
come into federal facilities than in the White House and in 
this facility where we are now. And it looks like there is a 
huge amount of difference.
    If something happens in one of those facilities, I would 
not like to be the one who said, well, we did all we can, when 
it is perfectly clear that post-Oklahoma bombing, post-9/11, we 
are cutting in half the number of police officers in federal 
buildings who can make arrests.
    Just one more question. You heard me ask the two witnesses 
before you whether or not some of the problems would be 
eliminated, particularly contracting problems, the problems 
that seem to have gone to the heading of efficiency and 
bureaucracy, if FPS was a stand-alone agency. Now, you 
recommend that.
    The answer to me made some sense, and that is, there has to 
be somebody to do the overhead because they don't have an 
infrastructure in DHS to handle one agency. GSA did it because 
GSA was an agency. If in fact you were to stand alone, who 
would handle the necessary administrative support?
    Mr. Wright. ICE currently outsources all of our shared 
administrative taskings to, well, labor relations is Laguna 
Niguel. CIS provides that service. USDA prints our paychecks in 
New Orleans. There are plenty of agencies out there that can 
take on these tasks.
    Ms. Norton. Well, they have given it to ICE, so they will 
say somebody had to do it, and so ICE is doing it. We need to 
discuss this, because this is a problem that really caused this 
committee to have this hearing--these contracting problems and 
the outsourcing of contracting officers, which is more 
outsourcing, more problems of that kind. If there is to be 
another iteration of this, then we need to discuss it. Yes, 
they outsource this, that and the other, but somebody in ICE 
has to be responsible for it, and therefore you have to have a 
proxy somehow for what the GSA did for the FPS.
    Mr. Green. Madam Chair, would you yield for one moment 
please?
    Ms. Norton. I cannot yield because I only took the liberty 
of the chair, since I was told I better get out of here by 
12:30. So I am going to close the hearing and ask that if 
members have other questions, that they ask them directly, so 
that I will not, in the name of the chairman, be accused of 
keeping the next hearing from getting in here, since it is not 
our hearing room.
    Thank you very much for coming to this hearing. It is very 
important testimony.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
